<html>
<title> - MAP-21 PREAUTHORIZATION: THE FEDERAL ROLE AND CURRENT CHALLENGES TO PUBLIC TRANSPORTATION</title>
<body><pre>[Senate Hearing 113-395]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-395


  MAP-21 PREAUTHORIZATION: THE FEDERAL ROLE AND CURRENT CHALLENGES TO 
                         PUBLIC TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING HOW STEADY FEDERAL SUPPORT OF PUBLIC TRANSPORTATION IS 
  ESSENTIAL TO PROVIDING ROBUST TRANSIT SERVICE ACROSS THE COUNTRY TO 
                    MEET THE NATION'S MOBILITY NEEDS

                               __________

                             MARCH 6, 2014

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Available at: http: //www.fdsys.gov /
                 
                               ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-767 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         RICHARD C. SHELBY, Alabama
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             PATRICK J. TOOMEY, Pennsylvania
JEFF MERKLEY, Oregon                 MARK KIRK, Illinois
KAY HAGAN, North Carolina            JERRY MORAN, Kansas
JOE MANCHIN III, West Virginia       TOM COBURN, Oklahoma
ELIZABETH WARREN, Massachusetts      DEAN HELLER, Nevada
HEIDI HEITKAMP, North Dakota

                       Charles Yi, Staff Director

                Gregg Richard, Republican Staff Director

                  Laura Swanson, Deputy Staff Director

               Homer Carlisle, Professional Staff Member

                    Phil Rudd, Legislative Assistant

                  Greg Dean, Republican Chief Counsel

          Rachel Johnson, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                       Taylor Reed, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)

















                            C O N T E N T S

                              ----------                              

                        THURSDAY, MARCH 6, 2014

                                                                   Page

Opening statement of Chairman Johnson............................     1

Opening statements, comments, or prepared statements of:
    Senator Crapo................................................     2
    Senator Menendez.............................................     2

                               WITNESSES

Michael P. Melaniphy, President, American Public Transportation
  Association....................................................     3
    Prepared statement...........................................    19
Barbara K. Cline, President, Board of Directors, Community 
  Transportation Association of America, and Executive Director, 
  Prairie Hills Transit..........................................     5
    Prepared statement...........................................    22
Larry Hanley, International President, Amalgamated Transit Union.     6
    Prepared statement...........................................    48

              Additional Material Supplied for the Record

Statement submitted by the Consortium for Citizens With 
  Disabilities...................................................    64

                                 (iii)

 
  MAP-21 PREAUTHORIZATION: THE FEDERAL ROLE AND CURRENT CHALLENGES TO 
                         PUBLIC TRANSPORTATION

                              ----------                              


                        THURSDAY, MARCH 6, 2014

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:05 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Tim Johnson, Chairman of the 
Committee, presiding.

           OPENING STATEMENT OF CHAIRMAN TIM JOHNSON

    Chairman Johnson. This hearing will come to order. Today 
the Banking Committee will hear from representatives of the 
public transportation industry as the expiration of MAP-21 
grows closer. Since 1995, annual transit ridership has grown by 
roughly 3 billion trips, and the Federal Government has been 
essential to this growth.
    The Federal Transit Administration provides more than 40 
percent of the capital investment in our transit systems. 
Without Federal funds, our Nation's cities would not be able to 
continue essential repairs and upgrades of their infrastructure 
and vehicles.
    In rural States, the Federal role is critical. Transit 
providers in States like South Dakota use Federal funds both to 
operate the routes and replace buses. Our rural citizens need 
reliable transportation to make necessary medical and shopping 
trips, particularly when driving or getting a ride from family 
members is not possible.
    Perhaps the greatest challenge to our Nation's public 
transportation providers is the uncertain future of the Highway 
Trust Fund. Both the transit and highway costs are unable to 
support current investments levels, and Congress must act to 
prevent a funding crisis before this fall.
    Without that infusion of new funds, new projects in FY2015 
will be put on hold and previously approved projects will be 
delayed. This could remove more than $50 billion from the 
economy, threatening almost 1.8 million jobs that are supported 
by transit, highway, and highway safety programs. Instead of a 
short-term fix, it is my hope that Congress can provide 
stability for the trust fund and enact a long-term 
authorization bill of 4 years or longer.
    As the Environment and Public Works Committee developed a 
highway title, and the Finance Committee developed a plan to 
address the trust fund, the Banking Committee must be prepared 
to offer a public transportation title. As we prepare for the 
next bill, FTA is still working to implement many of the 
significant reforms, about 21 enacted, such as the Transit 
Safety program.
    Also, the Committee's ability to change programs will be 
tied to the amount of funding the trust fund can support. As a 
result, in the next bill, I propose fewer programs and policy 
changes. Today's witnesses will highlight issues that Congress 
should consider addressing to improve public transportation 
services. Now I turn to Senator Crapo for his opening 
statement.

                STATEMENT OF SENATOR MIKE CRAPO

    Senator Crapo. Thank you, Mr. Chairman, and I welcome your 
remarks. I also appreciate your holding this hearing. It was 
just over a month ago that we held a hearing on the ongoing 
implementation of the transportation authorizing legislation, 
Moving Ahead for Progress in the 21st Century, or MAP-21. MAP-
21 provided the Federal Transit Administration with new 
authority in the area of transit safety, and it was helpful to 
get an update on what progress has been made to improve 
passenger safety.
    I appreciated the recognition from the Federal Transit 
Administration that new rules must be tailored in a way that is 
not unduly or disproportionately burdensome to smaller and 
rural systems, and the recognition that public transportation 
simply cannot be captured with a one-size-fits-all approach.
    The Banking Committee has a strong record of balancing the 
needs of rural and urban States and I look forward to 
continuing that principle as we move forward toward 
reauthorization. Today our witnesses will focus on the 
challenges they are facing while providing public 
transportation within their communities. Thank you to all of 
our witnesses for being here today.
    After the expiration of SAFETEA-LU, it took 3 years and 
then 10 short-term extensions to get another authorization 
passed. That kind of unpredictability presents serious 
challenges to many transit operators across the country that 
rely on the ability to leverage Federal transit dollars to 
improve the communities they serve.
    As you all know, MAP-21 programs are only authorized 
through September, but by latest projections, the transit 
account will be running on fumes if it does make it that far. 
As we discussed in the previous hearing, the most difficult 
issue will be how to finance our transportation needs going 
forward. MAP-21 was financed with nontraditional methods and it 
is imperative that we find a swift and meaningful fix to the 
serious current inadequacies of the Highway Trust Fund.
    Again, I thank our witnesses for being here and I look 
forward to your statements. Thank you again, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Crapo. Are there any 
other Members who would like to give a brief opening statement? 
Senator Menendez.

              STATEMENT OF SENATOR ROBERT MENENDEZ

    Senator Menendez. Thank you, Mr. Chairman. I want to thank 
you and the Ranking Member for holding what I think is an 
incredibly important hearing and to look at both the challenges 
and opportunities that MAP-21 presented, you know, I think it 
was a transformational bill that created a new safety and 
reliability framework for our Nation's transit riders, and 
having the best transit infrastructure possible, especially 
critical in States like New Jersey, one of the most heavily 
traveled areas of the country.
    According to the American Public Transportation 
Association, in the New York-New Jersey-Connecticut area, there 
are more than 4 billion transit trips each year carrying 
travelers 22 billion passenger miles. Our transit network is a 
smart growth, quality of life, economic issue that is critical 
to the viability of many New Jersey communities and millions of 
commuters.
    And if we are to be competitive, we need to be invested in 
our infrastructure, which when I look at the DOT's recently 
released Conditions and Performance Report, it talks about $87 
billion simply to bring our transit system to be considered in 
good repair. To me, that is simply unacceptable in a Nation 
that has traditionally led the world in state-of-the-art 
modernization and investments.
    So I would like to have my full statement entered into the 
record, Mr. Chairman. This is an incredibly important hearing 
and we look forward to working. Your leadership has helped us 
move forward under the MAP-21 and I hope we can build upon that 
progress as we look at reauthorization.
    Chairman Johnson. Without objection.
    Senator Warren. None. Now I will introduce our witnesses. 
Mr. Michael Melaniphy is the President of the American Public 
Transportation Association. Barbara Cline is the Executive 
Director of Prairie Hills Transit in Spearfish, South Dakota. 
She also serves as the President of the Board of Directors of 
the Community Transportation Association of America. Finally, 
Larry Hanley is the International President of the Amalgamated 
Transit Union.
    I look forward to the testimony of our witnesses. Mr. 
Melaniphy, please begin your testimony.

 STATEMENT OF MICHAEL P. MELANIPHY, PRESIDENT, AMERICAN PUBLIC 
                   TRANSPORTATION ASSOCIATION

    Mr. Melaniphy. Chairman Johnson and Ranking Member Crapo, 
Members of the Committee, thank you very much for the 
opportunity to be here this morning. I am Michael Melaniphy, 
President and CEO of the American Public Transportation 
Association.
    Reliable Federal investment is critically important as 
transit stakeholders work to meet growing and diverse ridership 
demands, advance safety improvements, and modernize our aging 
systems, all while facing uncertain Federal funding. Well-
designed transit service is a catalyst for economic growth. 
Transit projects shape land use and development patterns, 
generate jobs, stimulate productivity, and advance our national 
economy. But from the largest cities to the smallest towns, our 
systems are showing the strains of chronic underinvestment.
    While we can all understand the appeal of shovel-ready 
projects, prudent transit capital investments are the product 
of comprehensive and long-range planning decisions. In turn, 
such planning requires steady long-term investment by all 
levels of government. And the returns on this investment have 
been substantial. For every dollar we invest in public 
transportation, we generate about four dollars in economic 
benefit. And $1 billion in Federal transit investment fosters 
productivity gains that create or sustain 50,000 jobs.
    As these metrics make clear, local and regional 
transportation improvements yield national benefits. At a time 
when all these factors dictate far greater transit funding, we 
face the serious threat of cuts to the Federal program due to 
trust fund revenue shortfalls.
    In crafting MAP-21, Congress rejected the notion of 
retreating from its long-standing role in supporting public 
transportation, and supplemented trust fund revenues with a 
transfer from the general fund. While this approach worked for 
a 2-year bill like MAP-21, it does not provide funding 
predictability and does nothing to support needed growth.
    In my written testimony, I provide some specific examples 
of how transit agencies would be impacted by the loss of 
Federal funding. Let me assure you that transit agencies remain 
committed to providing the highest and safest level of service 
for their riders and would make every effort to mitigate the 
effects of any Federal funding cuts.
    But the potential for service reductions, fare increases, 
and cuts to capital projects is all too real. Our smaller 
transit systems would likely be the first to feel the impacts 
because they often rely on Federal funding for a greater 
portion of basic operating costs than larger agencies with 
broader revenue sources.
    To ensure reliable long-term funding best suited for 
infrastructure investment, APTA urges Congress to enact a 6-
year, $100 billion bill to grow the transit program from the 
current $10.7 billion level to $22 billion by 2020. Our funding 
proposal is robust because our needs are real.
    Highway Trust Fund revenues must increase to support 
program growth. Specifically, our proposal calls for increased 
funding for capital investment grants, state of good repair, 
bus and bus facilities, and the core formula programs.
    Recognizing that large, but infrequent bus capital projects 
are challenging to address with limited formula programs, APTA 
recommends restoring a discretionary component to the bus 
program and boosting overall bus funding to pre-MAP-21 levels.
    For several research, standards, and training programs 
where transit stakeholders face common challenges nationwide, 
the Federal Government is best suited to take the lead. To 
restore funding predictability to these programs, we recommend 
they be authorized as a set-aside from the urban formula 
program. With greater annual funding certainty, we can maximize 
the returns on this relatively modest investment.
    Assisting communities in the wake of disasters will remain 
a fundamental role of the Federal Government. We support MAP-
21's public transportation emergency relief program and urge 
Congress to fully and promptly fund transit relief and 
reconstructions projects in times of need.
    Communities across the country know that public 
transportation is a smart investment and have found creative 
ways to advance projects, but they cannot do it alone. As our 
impending Highway Trust Fund revenue shortfall makes clear, 
funding uncertainty delays capital investments and drives up 
project costs. APTA's recommendations reflect our belief that 
Federal funding for transportation is a wise investment in 
American jobs, American communities, and American economic 
competitiveness.
    Thank you for the opportunity to be here. I look forward to 
questions.
    Chairman Johnson. Thank you. Ms. Cline, you may proceed.

 STATEMENT OF BARBARA K. CLINE, PRESIDENT, BOARD OF DIRECTORS, 
COMMUNITY TRANSPORTATION ASSOCIATION OF AMERICA, AND EXECUTIVE 
                DIRECTOR, PRAIRIE HILLS TRANSIT

    Ms. Cline. Mr. Chairman, Ranking Member Crapo, and Members 
of the Committee. Thank you for inviting me today to discuss 
MAP-21 reauthorization and the vital role and the future of 
community and public transportation. My name is Barb Cline and 
I am here today representing both the Community Transportation 
Association of America, as its Board president, and Prairie 
Hills Transit in Spearfish, South Dakota as its Executive 
Director.
    CTAA is a national, nonprofit membership organization for 
transit agencies, officials and advocates supporting rural and 
small urban and specialized operators. Prairie Hills Transit 
serves a 12,000-square-mile service area and grew from an 
operation that started with the old green van in the back 
parking lot in 1989 to one today comprised of 38 vehicles and 
50 employees operating in six South Dakota counties and serving 
two Native American reservations.
    We operate out of a full-service intermodal transit 
facility that provides local residents with mobility options 
and even houses licensed child care. I appreciate the 
opportunity to bring the perspective of both CTAA and Prairie 
Hills Transit to you this morning. We believe that mobility is 
a basic right for all Americans, one that requires Federal 
investment paired with support from State, county, and local 
governments, as well as private sector partnerships.
    Nothing could be more important to the future mobility of 
rural and small urban America than Congress reauthorizing 
surface transportation legislation, on time and with the 
resources these communities rely on. Rural and small urban 
communities depend on the support of Federal programs to a 
greater degree than their large urban counterparts. A State 
investment is often inconsistent and local resources are 
strained. There are no rainy day funds for the majority of 
small and rural transportation providers.
    The result of no new legislation will be service cuts, 
disruptions, and fare increases. Passengers will be the hardest 
hit, arriving to work late or not at all, and missing life-
sustaining medical appointments. The basic independence of many 
rural residents will be threatened.
    Demand for rural and small urban transit is growing and is 
why increased investment in Section 5311 and 5307 is vital. In 
the third quarter of 2013, ridership in transit systems in 
communities with populations under 100,000 was the fastest 
growing segment in the transit industry. Ridership in these 
small communities has grown every year for the past 5 years.
    The prime example of the need for Federal investment in 
rural and small urban transit is in the bus and bus facility 
capital program. In my home State of South Dakota, out of 337 
total vehicles in service, 358, more than 95 percent, exceed 
recommended useful life standards. Half of those have been 
operating for more than 10 years. At current levels of 
investment, it would take nearly 20 years to replace all 
transit vehicles operating past their retirement age.
    New buses increase system capacity, safety, and efficiency, 
and are necessary to meet growing demand. Health care trips in 
small and large communities are inundating transit operations. 
Back home we partner with local hospitals, veterans clinics, 
24-hour care facilities, dialysis centers, and more to manage 
transportation for some of South Dakota's most vulnerable 
populations.
    A 40-mile one-way life sustaining dialysis trip or 
assisting local hospitals with patient discharge, sometimes to 
another State, are just part of what we do every day. I could 
talk about regulatory reform, mobility management, planning 
issues and more, but all of those are covered in the written 
testimony that we hope will be part of this hearing's official 
record. Our written testimony also includes an important new 
report on the impact of chronic illness management on community 
and public transportation.
    In closing, it is an honor to testify before the Senate 
Banking Committee this morning, and I am most grateful for that 
opportunity. I would be happy to take any questions when that 
time arrives.
    Chairman Johnson. Thank you. Mr. Hanley, you may proceed.

STATEMENT OF LARRY HANLEY, INTERNATIONAL PRESIDENT, AMALGAMATED 
                         TRANSIT UNION

    Mr. Hanley. Good morning. Thank you, Mr. Chairman and all 
the Members of the Committee for the opportunity to be here and 
to speak to you about the growing crisis in American transit. I 
represent the people of the Amalgamated Transit Union. We have 
200,000 members in the U.S. and Canada. Our people drive buses 
and trains throughout the United States, in all 48 contiguous 
States anyway.
    And I want to speak also on behalf of the 35 million people 
who ride buses and trains in the U.S. every day. We have been 
through a transit crisis since the beginning of the recession. 
Throughout the United States, cities have been challenged to 
continue operating their existing service. There has been no 
help from the Federal Government to try and alleviate that 
problem.
    We have seen 90 percent of the cities in the U.S. raise 
fares, cut service, and with that comes the deterioration of 
routes that have existed for over 100 years, in some places, 
including my own hometown. The riders are angry and we know it. 
We see it first. In a lot of ways, bus drivers are the canary 
in the coal mine for these problems. The angry riders are now 
boarding buses in record numbers beating up our drivers.
    Remember that our drivers put a uniform on every day and go 
into neighborhoods and become the curbside tax collectors, 
something that nobody else really has to do. And as they do 
that and they go into areas where they are providing less 
service, where people have to wait on corners longer, and then 
they tell people that the fares have gone up, they often get 
beaten up.
    We have a record number of people who have been assaulted 
over the course of the last several years, and it is a growing 
problem and, frankly, an unnecessary one.
    But throughout the U.S., as people have been challenged 
with their transit, they have lot jobs. There are places--and 
there have been stories published often about the fact that 
with the deterioration of transit services, and in some places 
such as just outside of Atlanta, Georgia, where a county 
eliminated all of their bus service, people have been left 
stranded, unable to get to work.
    We need to change completely the way we view transit, 
especially in light of what is happening in our cities. 81 
percent of Americans currently live in metropolitan areas and 
the size of those metropolitan areas is about to explode. It is 
anticipated, in the next 20 years, that those populations will 
grow by one-third, and young people today are rejecting the 
car.
    This is actually good news for America because we will not 
be able to sustain more cars on our roads in coming years. And 
young people today are saying, No, I do not want to even get a 
driver's license. Fewer young people today hold driver's 
licenses as a percentage of the population than did when John 
F. Kennedy was the President.
    That is another canary in the coal mine. That tells us that 
as cities grow and as younger people reject riding in cars and 
say, I want to ride on transit, this Government has to step up 
and provide it. That requires not only all the things that my 
colleagues have testified to today in terms of funding, it also 
requires a vision. You have to sit down and say, ``Wait a 
minute, where are we going in urban America? What are the needs 
going to be in 5 and 10 years?''
    In places like New York where it is anticipated in 12 years 
the population of metropolitan New York is going to reach 21 
million people. Where are they going to go to get to work? So 
transit is not only a huge driver for mobility for Americans, 
but their mobility is what leads to social mobility, and if, in 
fact, we care about inequality in America, we have to turn and 
say, ``What are the things that enable people to get to work, 
to be productive citizens? How can we energize this economy?'' 
And, frankly, this is one place where people have not paid 
enough attention over the course of the last several years.
    I thank you for the opportunity again and I would be happy 
to answer any questions.
    Chairman Johnson. Thank you. Thank you very much for your 
testimony. As we begin questions, I will ask the clerk to put 5 
minutes on the clock for each Member.
    Mr. Melaniphy, the Committee has heard from many transit 
agencies that the lack of discretionary bus funding in MAP-21 
makes it difficult to pursue large one-time projects like a bus 
order. APTA calls for significant growth in total Federal 
funding and a bus program that is 50 percent competitive. If 
Congress is able to provide only modest growth, how should a 
bus program look?
    Mr. Melaniphy. Thank you, Mr. Chairman. The program is 
important to meet the needs of our bus operators across the 
country. As Ms. Cline indicated in her testimony, many of these 
agencies are not able to replace their fleets on a formula 
program. They cannot accumulate the funds quickly enough to 
fund large capital projects before those funds would expire and 
get swept away.
    It is important that we provide a discretionary component 
to the program so that we can meet these lumpy needs, whether 
they are for buses or transit centers or shelters. Those one-
time or infrequent capital projects need to have a way to get 
funded, and by having discretionary opportunities, those 
projects can get their needs met. It is important to find ways 
to do that, so there is equality across all the systems, so 
that small systems, in particular, are not disproportionately 
impacted by the lack of a discretionary program. I think it is 
really important we have both options for formula and 
discretionary funding.
    Chairman Johnson. Ms. Cline, it is good to see you here in 
Washington. How could a competitive bus program be structured 
to be accessible to transit providers of all sizes with 
predictability in the schedule and structure of a discretionary 
program assist smaller agencies like Prairie Hills?
    Ms. Cline. Well, I think one of the best ways would be that 
there is a significant dedicated amount, a percentage, that is 
specifically allocated. But keeping in mind that in our small 
rural States, oftentimes we do not have that person that is a 
grant writer. Oftentimes it is myself; in other systems, it is 
exactly the same way. And so, we need to have adequate time to 
be able to put together that information and we need to have a 
dedicated amount that will get us up to the level that we need 
to be.
    Chairman Johnson. Mr. Hanley, ATU's reauthorization 
proposal makes a number of recommendations to improve ADA 
paratransit service comparable to fixed road service. What are 
the best means to assess the quality of paratransit service in 
communities?
    Mr. Hanley. I would guess how people feel about the 
systems. We do not do analysis on a regular basis in local 
areas about paratransit. We have a very strong sense of what is 
happening out there, and the problem is that there have not 
been funds made available to agencies to operate their systems, 
and this is general. This not just paratransit.
    But as the needs of America have grown for more paratransit 
and nobody has stepped up to provide the amount of funding that 
these systems need, there have been strains placed on them. 
There are places where systems are actually cutting back on the 
service they provide to people in need of paratransit. But 
also, there is a strain on the general budget of these agencies 
because there is a bias in Washington that we will not provide 
operating aid to transit systems anymore, at least large 
transit systems.
    So frankly, I think that the systems are underfunded and 
that we need to reopen the discussion, as Senator Clinton did 
about operating transit systems.
    Chairman Johnson. Ms. Cline, you testified at a field 
hearing last year about how important health care trips under 
Medicaid are to your riders. In other States, the Committee 
hears about Medicaid agencies and nonemergency medical 
transportation trip brokers that do not coordinate with transit 
providers. How would your riders be hurt if Medicaid trips in 
South Dakota were not easily reimbursed?
    Ms. Cline. Well, I can tell you that a big share of the 
trips that we provide are for individuals accessing Medicaid 
benefits. So for those riders, it would also affect our ability 
to provide transportation simply because that is one of the too 
largest ways that our program is funded, is with Medicaid 
support by providing those trips.
    Chairman Johnson. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman. People often think 
of Idaho as a rural State and it is mostly, but urban 
transportation is increasingly a bigger deal there. I want to 
focus on rural transportation first, though, and I think I will 
start with you, Ms. Cline. What do think are the biggest issues 
facing rural transportation today?
    Ms. Cline. Boy, there is a lot. But without increased 
operating dollars and an increase in both bus and bus facility 
funding. I think the major thing that small rural systems are 
going to see is that it strains their budgets so far that we 
are going to actually see a reduction in service. Costs of fuel 
goes up, just the cost of managing the programs. I think you 
are going to see a reduction of service probably to the most 
frail and elderly folks that need to cover long distances.
    Senator Crapo. I noticed in your testimony you referenced 
the disproportionate impact of regulatory burdens as well on 
rural systems and small urban systems, also.
    Ms. Cline. Right.
    Senator Crapo. In our hearing last month, the Federal 
Transit Administration recognized that new rules need to be 
tailored in a way that, frankly, do not unduly 
disproportionately burden our smaller and our rural systems. 
Rural operators already have a strong record of safety. So what 
can we do on this front? What would you recommend?
    Ms. Cline. Well, safety is obviously one of the most 
important things that we focus on routinely. Any additional 
regulatory burdens would require additional staffing, and with 
additional staffing obviously comes the financial investment 
that is necessary in order to add those people, pay those 
people, making sure that the statistical data that were 
required to compile is really something that is important. It 
is, again, an additional burden.
    In South Dakota, the safety piece, for instance, South 
Dakota has not had a fatality in the last 10 years. Do we 
really need additional regulatory burdens on those systems?
    Senator Crapo. Good point. Do either of the other two 
witnesses want to comment on this before I move on? Mr. 
Melaniphy.
    Mr. Melaniphy. Thank you, Senator. Safety is comprised of 
many different components. It is the operation, it is the 
people, and it is the equipment, and all these compartments 
require long-term investment. When agencies are operating 
equipment, as Ms. Cline touched on, that is oftentimes more 
than 10 years old, very high mileage, that impacts safety, 
reliability, and dependability. With long-term dedicated 
funding and with the ability to access discretionary funding to 
meet those needs, they can put newer, safer, more 
environmentally friendly equipment into service, and that is 
going to benefit the communities.
    Mr. Hanley. I just add that the Congress needs to pay more 
attention to some of the escape doors that particularly private 
companies are finding to avoid regulation. There is one that 
happened right here in Washington, DC, where a private company 
that provides paratransit for WMATA removed one of the seats 
from each of their vans to escape Federal drug testing 
regulations.
    So that people that are now riding around in vans who are 
disabled in Washington, DC, have drivers that are not drug-
tested, despite the fact that this is a policy of the Federal 
Government, and they got around it by removing a seat so they 
had, instead of nine seats, eight seats in their vans.
    And there have been other stories that have come out about 
bonuses being given in these companies to managers that cut 
corners and make more profit, and that almost always comes at 
the expense of safety. So I would caution that we really need 
to pay close attention to what they are doing out there and not 
abandon strong regulations, and also strong enforcement of 
those regulations with analysis that goes with it.
    Senator Crapo. That is a good point. We need to make sure 
we protect safety and soundness. We also need to make sure that 
we do not overburden the regulatory structure so that our 
smaller systems face difficulties. With the short time I have 
left, I just cannot resist, Mr. Hanley, coming back to 
something you said in your testimony.
    I just want you to explain it a little bit more to me if 
you would, and that is, if I heard you correctly, you said that 
there are fewer people today who hold driver's licenses than in 
the time of JFK. Is that----
    Mr. Hanley. No. What I said is that fewer young people, as 
a percentage of their population, are holding driver's 
licenses. They do not drive cars the way that we did when we 
were kids. They do not get licenses. They have chosen public 
transit and that is part of why you see the numbers growing so 
well in cities, people riding transit.
    Senator Crapo. All right, thank you.
    Mr. Hanley. It is a global trend, by the way. It is all 
over the world.
    Senator Crapo. That is very interesting. Thank you very 
much.
    Chairman Johnson. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you for your testimony. I want to particularly thank you, Mr. 
Hanley, for your very thoughtful and eloquent sort of 
discussion of how this issue has broad impact on equality, 
access to work, you know, getting your share of the American 
dream. I thank you for that. Your colleagues up in Division 618 
in Rhode Island have just celebrated their 100th anniversary, 
so you represent some very dedicated and thoughtful men and 
women, so thank you for that.
    But a point you raise is a very serious one, is that there 
are increasing physical threats and other threats to transit 
systems throughout the country, not just in the northeast, but 
across the country. And there are also, as we understand, there 
are systems, big city systems, that have their own transit 
police forces, but I do not think that is the case in South 
Dakota and it is not the case in Rhode Island either. So we 
depend--the transit system essentially has to provide its first 
line of defense and protection.
    MAP-21 narrowed the capital investment flexibility for 
crime prevention security so that the funds that previously 
could be used under rules and regulations to invest in cameras, 
communication devices, et cetera, for security purposes, that 
is not now under MAP-21. So my sense, Mr. Hanley, is you would 
urge us to go back and look at that and try to provide more 
resources for physical security for bus systems across the 
country.
    Mr. Hanley. Thank you, Senator. Yes, you know, I speak now 
as a bus driver, as somebody who has been assaulted driving a 
bus. It is something that has gone on, particularly in times of 
economic downturn. It expands as an issue for us and we believe 
that what needs to be done, in addition to providing adequate 
police protection is a reengineering of the bus operator's work 
station.
    They have, over the course of the last several years, been 
installing in buses aftermarket protectors, you know, windows 
that have been put up around the driver to protect the driver 
from assault. The problem is that it is a very uncomfortable 
set-up for a driver. Nobody has looked at reengineering 
driver's work stations in the last 40 years.
    We think that what has to happen is that funding has to be 
provided, but also agencies have to be encouraged, when they 
order buses, to actually do a study of what a driver's needs 
are and build in the engineering--build into the engineering 
bus driver protection.
    Senator Reed. So the first step is for both the 
manufacturers and the transit agencies to come up with state-
of-the-art equipment and then our role would be to authorize on 
the capital investment necessary to do that?
    Mr. Hanley. We would actually like you to bring pressure on 
the companies to do this because it is rarely a high priority 
for them.
    Senator Reed. Thank you. Now let me turn to Mr. Melaniphy 
and Ms. Cline. Can you just give us a sense of what happens 
first in terms if we fail to extend the trust fund? And even if 
we extend the trust fund with current levels, my sense is we 
are still going to fall way behind the growing need of transit 
systems for investment, capital improvements, all sorts of 
things. So in a very few minutes, perhaps a minute, in a minute 
you can enlighten us.
    Mr. Melaniphy. Yes, Senator. I think this ties to Mr. 
Hanley's comments as well. When you provide long-term funding 
certainty, then the private sector is able to make long-term 
investments. It is hard to make major investments in R&D. I 
know, as I used to be a vehicle manufacturer in North Dakota. 
It is hard to make those investments if you are operating under 
short-term CRs.
    If you have got long-term certainty, you can make those 
investments for doing innovative new things, and funding 
research to help create standards across the industry is very 
important for that as well.
    As we look at the agencies, whether they are in Rhode 
Island or South Dakota, wherever they are in the country, 
funding uncertainty depends in part on agency size. Some 
agencies have multiple funding sources, some have dedicated 
local funding, some have capital reserves. Smaller systems tend 
to be more dependent on Federal funds for their operating 
costs. Larger systems tend to have Federal funds more focused 
on the capital side.
    They will all be impacted. And as you touched on, Senator 
Reed, there is no question that we have a state of good repair 
backlog that must be addressed to have safe, reliable, 
dependable service at the same time that we have the highest 
ridership in public transit this country has seen in more than 
50 years.
    Senator Reed. Thank you. And Ms. Cline, your comments? 
Thank you.
    Ms. Cline. And I would say that even with the last 2-year 
bill, our resources are already stretched so far. Oftentimes I 
call it a shoestring budget. We do not have the ability to 
stretch any further. I think we would see severe disruption in 
service, perhaps service cuts from some of our long distance 
trips, and those are very vital to those individuals.
    Senator Reed. Thank you very much. Thank you all. Thank 
you.
    Chairman Johnson. Senator Warren.
    Senator Warren. Thank you very much. Thank you, Mr. 
Chairman, Ranking Member Crapo for holding this hearing and 
thank you all for being here. I want to go back to something I 
asked about in the January hearing that we had on MAP-21, and 
that is about how Congress has said in the program to 
distribute the money.
    As we know, there are two ways that the money can be 
distributed. Part of it can be distributed through a very fixed 
formula. It goes so much to States and so much to localities by 
a set formula. And then part of it is potentially left to the 
discretion of the FTA, so that a locality or a State can bid 
competitively in order to be able to do that in that process.
    And that historically, the money has been divided about 80-
20. That is, that 80 goes to a fixed formula and about 20 goes 
to discretionary spending. But that under MAP-21, we switched 
over to 91 percent goes by formula and there is only 8 percent 
left for discretionary spending, and that means very clearly in 
the last authorization, we moved away from more discretion.
    So in the January hearing, I asked the Federal Transit 
Administrator Rogoff about whether the sharp decrease in 
discretionary funding had an impact, and what he pointed out is 
that it made it much more difficult for transit agencies, and 
particularly for bus operators, to take on big projects like 
constructing new maintenance facilities.
    So I just wanted to go down the panel, if I could here, and 
see if I could get some kind of quick answer about whether you 
think the decrease in discretionary funding, as a proportion of 
MAP-21, has made it harder for State and local agencies to make 
the necessary large dollar investments that they need to make. 
And I thought I might start with you, Mr. Melaniphy.
    Mr. Melaniphy. Thank you, Senator. I think it is a two-part 
answer. First, we must restore historic funding levels that 
have provided a good balance in the bus and bus facilities 
program in relation to new starts and state of good repair. So 
having good funding levels in all those is certainly important.
    Then, agencies must have the ability to meet those one-time 
needs. You may only build a new garage every 40 years or 
replace vehicles every 10, 12, 15 years, but to be able to meet 
those lumpy needs, you need to have that discretion that the 
bus program just does not address now in a clean, equitable 
way.
    Senator Warren. Ms. Cline, could you add to that, please?
    Ms. Cline. Yes. We were not in favor, of course, of the 
cut, but an example in case is that in South Dakota currently, 
of the 24 vehicles that were requested this year, we were able 
to award eight vehicle replacement bids. So it is a serious 
situation.
    Senator Warren. Thank you. And Mr. Hanley.
    Mr. Hanley. I think discretion can be a good thing, but 
also that the Federal Government needs to establish some 
standard for what the return on investment is for these local 
agencies. I could give you some very annoying facts about the 
way in which some agencies, particularly in New York, have 
spent their capital funds, you know, spending huge amounts of 
money that will serve very few people.
    So I do think that there has to be some analysis of how 
that comes out on the other end. Although generally as a rule, 
I would say discretion for local agencies to figure these 
things out is a good thing.
    Senator Warren. Well, I appreciate it and I think that is 
actually a very good point about what kind of constraints you 
want to put in this. We all want to spend our Federal dollars 
in the most effective way possible, and I am just concerned 
about the move to formulate funding and hope that this is one 
of the things we will think about as we talk about the 
reauthorization of MAP-21, how the dollars are divided up.
    But now I want to go to the point you were raising and that 
is how many dollars we put into this system. As you know, 
infrastructure investment creates jobs, both in the short-term 
and in the long-term. In Massachusetts, across the country, we 
have roads and bridges that are in need of repair. We have rail 
and mass transit expansion projects that would allow businesses 
to grow. We do a good job of identifying our transportation 
needs, but that is only half the equation.
    The second is how we pay for infrastructure repairs and 
upgrades. So when MAP-21 was enacted last July, it was 
partially funded by increasing the PBGC pension insurance 
premiums by 40 percent over 2 years, and through pension 
smoothing, which allows companies to contribute less to the 
pension funds now, but can leave those plans underfunded in the 
future.
    This raises money in a 10-year budget window, but 
ultimately, it means that retirees and future retirees will 
potentially be on the hook here. Investing in infrastructure is 
critical to our future, but we should not be doing it on the 
backs of retirees that way this was funded in the past.
    The Highway Trust Fund has been funding critical projects 
for over half a century by taxing gasoline and diesel fuel, but 
now we are facing a serious dilemma. The trust fund is nearly 
empty. Increasing fuel efficiency means that we are bringing in 
less revenue.
    So we all have the same concerns about rail and mass 
transit. Raising ticket prices means that we will end up 
funding the system on the backs of those who have fixed 
incomes, retirees who have to rely on mass transit. So what I 
really want to bring this down to is where we are going to get 
the money.
    When Congress says no more spending no matter what even on 
important things like mass transit, like roads and bridges, 
what they are really saying is they would rather preserve tax 
loopholes that primarily benefit a few people rather than make 
the investment in infrastructure that benefits the whole 
economy.
    So I see that I am out of time and I will just simply ask 
the question, if you could answer very briefly. You could 
probably give this a yes or no. Are we underinvesting in our 
mass transit and our infrastructure spending? And I will start 
the other way. Mr. Hanley.
    Mr. Hanley. Outrageously so, particularly in light of what 
I have pointed out about young people in America and the 
growing population of our cities.
    Senator Warren. Thank you.
    Ms. Cline. Definitely.
    Senator Warren. That is strong.
    Mr. Melaniphy. Absolutely. We need increased funding for 
global competitiveness. We must invest.
    Senator Warren. Thank you. Thank you, Mr. Chairman. I 
apologize for running over.
    Chairman Johnson. Mr. Melaniphy, if Congress fails to 
provide stable formula funds after MAP-21 expires, what will be 
the effects on APTA's private sector members that supply 
vehicles and products to the public transportation industry?
    Mr. Melaniphy. Thank you, Mr. Chairman. The public 
transportation industry, when you look at how we build rolling 
stock, is not like building a building where you source your 
bricks and wooden materials locally. These are components that 
are built in big factories and they supply the Nation, whether 
they are building locomotives in Idaho, buses in Alabama, or 
rail cars in upstate New York.
    These supply nationwide. When I helped manage a bus 
manufacturing factory in North Dakota, we had 3,000 suppliers 
that supplied that factory from all over the Nation and brought 
good-paying, high tech, highly skilled and well-benefited jobs 
to that part of the country.
    So it is important that we continue to invest to give that 
long-term stability. If we are only going along on short-term 
funding, you cannot make that long-term investment in R&D and 
sustainability with your vendor base, and what happens is we 
lose suppliers. We have lost any number of bus suppliers in 
this country because the market has become so unstable and 
small.
    We must have long-term funding in order to create an 
environment where people want to invest long-term, they want to 
hire long-term, and keep people there so we are not losing 
those highly skilled jobs in this market space. Thank you, 
Senator.
    Chairman Johnson. Mr. Hanley, what would be an appropriate 
timeline for changes to bus designs to promote driver safety? 
How should FTA facilitate discussions on this issue?
    Mr. Hanley. Well, FTA is calling--I am sorry--DOT is 
calling a summit to examine the assaults on transit workers and 
we think that is a good step forward. We should immediately 
begin the process because it takes about 12 years to cycle 
buses throughout the system, so the buses that get built a year 
or two from now will begin that, assuming that people adopt 
this idea.
    Chairman Johnson. Ms. Cline, the President's recent 
proposal for reauthorization did not focus funding on the 5311 
formula. How important is it that rural formula funds grow 
along with other funds?
    Ms. Cline. As you know, currently with the 5311 dollars 
that we are receiving, we are already stretched to the max. It 
also means that we are placing an undue burden on the repairs 
and maintenance of outdated stock, stock that is needed to be 
replaced. I will use the example of some of our systems in 
South Dakota.
    They are unable to raise their wage to a living wage. In 
fact, some are still at a minimum wage starting salaries. 
Salaries have not been increased. I think it goes back to 
simply the working people. They are not even able to retire. So 
we need to have that increased investment to sustain and to get 
us back to, I think healing might be a good word, get us back 
to the point where we can operate and perhaps even expand the 
services to meet the growing need that we have, in particular 
with health care and chronic illnesses.
    Chairman Johnson. Does the typical driver earn a minimum 
wage?
    Ms. Cline. Oftentimes, the typical driver does not earn 
minimum wage. Well, no, I will take that back. They do get 
minimum wage, but the increases to those, which would normally 
be on a performance-based annual evaluation, oftentimes those 
increases are not made as they should be because they are 
trying to keep the costs low enough to provide the service.
    Chairman Johnson. Thank you. Senator Crapo.
    Senator Crapo. I have no additional questions, Mr. 
Chairman.
    Chairman Johnson. Senator Warren.
    Senator Warren. The only thing I would say, Mr. Chairman, 
if I have more time, is to go back to this question about 
funding. We have got to have long-term funding, as you say, but 
we have got to have adequate funding. We know why the 
investment in infrastructure is important. We just need to find 
the courage around here to find the money and put the money 
into our infrastructure investments. So thank you all for being 
here. Thank you for having the hearing.
    Chairman Johnson. Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman. Mr. 
Melaniphy, your testimony discusses specific examples of how 
transit agencies in Houston, Los Angeles, Dallas, Jacksonville, 
for example, would cope with cuts in Federal funding that could 
result in an insolvent transit fund, and they include massive 
service cuts, rolling back paratransit, fare increases.
    Can you discuss what impacts an insolvent trust fund might 
have on the large transit systems in the northeast, for 
example?
    Mr. Melaniphy. Yes, Senator Menendez. It is key to the 
economic viability of this country that we have good public 
transportation that works. If you look at the northeast, you 
can see how critical it is. When Hurricane Sandy hit and people 
could not get to work, the impact that had on our economy was 
significant. Whether it is in big systems or small systems, it 
is critical that people have access to jobs, access to health 
care, and access to their communities.
    If they cannot get there, they cannot go there. So we must 
make these investments. Otherwise, we are going to see transit 
agency cuts in investment and capital and operations, resulting 
in loss of access to jobs, reduced access to health care, and 
we are going to slow this country's economic recovery down. It 
is critical that we make these investments.
    Senator Menendez. You know, in our own systems that we 
operate, mass transit systems have also been the fuel of 
economic development where we have seen transit systems 
ultimately be developed, for example, along the Hudson 
waterfront overlooking midtown Manhattan. The Hudson-Bergen 
Light Rail system.
    Working years to help develop that ultimately created an 
entire development of the waterfront that increased the 
rateable base for communities, increased jobs for individuals, 
and ultimately created even a greater synergy in trans-Hudson 
crossings by getting people to those trans-Hudson crossings to 
a mass transit system.
    And so, you know, I sometimes think we look at transit just 
about moving people from one place to the other. There is an 
economic dimension, there is a quality of life dimension, there 
is an environment dimension in terms of breathing cleaner air.
    And so, when I look at that, I am concerned about an 
insolvent trust fund, and I agree with my colleague, Senator 
Warren, that, you know, the patch-up system that we have of 
trying to fund this process makes for poor public policy, it 
makes for poor planning decisions, and makes for a poor transit 
system at the end of the day.
    I also want to ask you about--I referred to it in my 
opening comments about DOT's recently released Conditions and 
Performance Report that shows it will take $87 billion to 
simply bring our transit system to a state of good repair. Now, 
that does not mean to enhance it. It just means to bring it to 
a state of good repair, and that backlog is largely driven by 
the cost of repairing the tracks, the stations, the power 
systems that make up the backbone of our rail transit system.
    Does your organization's reauthorization proposal address 
this backlog and make sure that we are investing the 
substantial capital needs?
    Mr. Melaniphy. Yes, it does, Senator. It is critical to 
make these investments to maintain safe, reliable, dependable 
service to these communities. Safety is paramount to these 
agencies and we have to have a good investment in railbed, in 
the locomotives and buses, in the facilities they service.
    And to tie to the economic comments that you made, we had 
two studies done recently. One was done with the National 
Association of Realtors, one with the U.S. Travel Association. 
The first study found that the value of housing stock along 
high frequency transit corridors was 42 percent more resilient 
than properties outside those corridors because people had 
access to jobs and they could get around their communities 
without automobiles.
    Our study with the U.S. Travel Association found that 
downtowns had higher economic viability, higher hotel room 
rates, if they had a connection to their downtown and their 
airport through good transit. These studies show that public 
transportation is good for the economy overall. It is more than 
just about the trip from A to B.
    Senator Menendez. Well, it seems to me that if you can have 
the very guts of the system be in a State that can actually 
make billions of rider trips, particularly in places like the 
northeast, but other places in the country, then you can 
achieve the type of transit system that creates that economic 
engine.
    Finally, President Hanley, I appreciate your leadership in 
your organization and your insights. Your testimony notes that 
between 1998 and 2009, private contracting, for example, for 
regular bus service doubled, and I know we hear this move 
toward privatization in an attempt to save money. Yet, 
privatization often has hidden costs that do not surface when 
the switch is made.
    You propose a new method of calculating these hidden costs, 
which you call the avoidable cost model. Can you explain how 
that model would work and how it would help transit agencies in 
making some sound investment decisions?
    Mr. Hanley. Well, first of all, the best way I can explain 
what has happened in terms of the starvation of our systems, 
including the privatization of them, is to take you into a 
meeting I was at with 25 of our local presidents, brand new 
presidents who had just gotten elected in various parts of the 
union.
    And one of them stood up in the course of a discussion we 
had and he said, You know--in eastern Dayton, Ohio--and he 
said, You know, I have members who work full-time, they have 
been there for 10 years and they make $12 an hour and they 
qualify for social services. And that got my attention.
    And I said, Well, wait a minute. How could that be? And I 
said, Well, how many people in this room have that same issue 
where you have members who are driving buses, fixing buses, 
working full-time but qualify for social services? Every one of 
them in the room raised their hands except for the Canadians. 
That is what happened.
    And I was stunned, you know, that in our industry--because, 
you know, often in the larger cities we think of transit 
workers as being decently paid. But the fact of the matter is, 
you know, as has been pointed out this morning, most of them 
are not and most of them are out there living on very low 
wages.
    And the impact and the secondary cost to privatization 
includes stripping Americans of their pensions. I just want to 
point out that one of the largest companies that does this in 
America is a French-based company named Veolia that is owned by 
the French Social Security system, and they have a policy in 
the United States that no worker who works in their transit 
systems will have a pension.
    In fact, no workers who work for Veolia in the U.S. have a 
pension, and that has long-term implications on our people. It 
has long-term implications on our country. And, frankly, you 
know, we have to have priorities. I want you to know first that 
in 75 percent of the cases where the American people, 
taxpayers, are given the opportunity to vote to raise their own 
taxes for transit in referenda, they say yes. Seventy-five 
percent of these referenda are passing.
    The American people are very willing to raise their taxes 
to pay for a transit system that they know helps the 
environment and helps the economy, as you pointed out, Senator. 
But the fact of the matter is that we have different priorities 
nationally and we ought to rethink them, in addition to which, 
as Senator Warren said, I think we have to be, to paraphrase, 
less timid about going to the American people and talking to 
them about revenue, because they are willing to pay for it. 
They just need to know what they are paying for.
    And Some of the priorities we have such as our huge war 
machine, I think really need to be questioned. I know that is 
not a popular thing to talk about or to say, but the fact of 
the matter is that the amount of money we spend all over the 
world defending the American way of life while we diminish the 
American way of life every single day is really--it really 
raises the question. What are we defending?
    If we cannot defend our Social Security system, if we 
cannot defend our pensions, if we cannot defend these people 
who work in every transit system in America who also qualify 
for social services, what are we defending? I am at a loss.
    Senator Menendez. Thank you, Mr. Chairman. Thank you.
    Chairman Johnson. I want to thank our witnesses for their 
testimony today.
    Unfortunately, we are not able to achieve a quorum this 
morning to adopt the new Subcommittee roster. We will postpone 
the executive session until after the first vote at 11:20 this 
morning off the floor in the President's Room.
    This hearing is adjourned.
    [Whereupon, at 11:03 a.m., the hearing was adjourned.]
    [Prepared statements and additional material supplied for 
the record follow:]
               PREPARED STATEMENT OF MICHAEL P. MELANIPHY
         President, American Public Transportation Association
                             March 6, 2014
Introduction
    Chairman Johnson, Ranking Member Crapo, and Members of the 
Committee, thank you for the opportunity to testify on the Federal role 
in addressing the challenges facing the public transportation industry. 
I am Michael Melaniphy, President and Chief Executive Officer of the 
American Public Transportation Association (APTA). Reliable Federal 
investment--and a steadfast Federal partner--are critically important 
as public transportation stakeholders work to meet growing and diverse 
ridership demands, advance safety improvements, and modernize our aging 
systems, all while facing uncertain Federal funding.
About APTA
    APTA is a nonprofit international association of nearly 1,500 
public and private member organizations, engaged in the areas of bus, 
paratransit, light rail, commuter rail, subways, waterborne services, 
and intercity and high-speed passenger rail. This includes: transit 
systems; commuter, intercity and high-speed rail operators; planning, 
design, construction, and finance firms; product and service providers; 
academic institutions; transit associations; and State departments of 
transportation. More than 90 percent of the people using public 
transportation in the U.S. and Canada are served by APTA member 
systems.
About Public Transportation
    APTA's member organizations--both public and private--build, 
operate, and maintain the Nation's public transportation systems. An 
essential and expanding component of the surface transportation 
network, public transportation enhances connectivity within our 
communities. But from the largest cities to the smallest towns, our 
systems are showing the strains of chronic underinvestment. Our ability 
to provide safe and reliable service depends on continued Federal 
support.
    Public transportation ridership has been trending upward for years, 
and annual ridership now exceeds 10.3 billion trips. To serve this 
growth, the public transportation industry spends more than $38 billion 
on operating costs and an additional $17 billion on capital 
investments, totaling $55 billion annually. While Federal spending 
represents slightly more than 43 percent of capital expenditures and 
less than 10 percent of operating expenditures, these Federal dollars 
make an enormous difference in our ability to address capital 
investment needs and operate bus service in many communities.
    Federal funding is also critical to closing the well-documented 
infrastructure investment gap that has left many systems struggling to 
bring their infrastructure into a state of good repair. Transit systems 
must address this backlog at the same time that they are expanding 
service to meet the needs of riders as diverse as aging-in-place 
seniors, urban millennials, suburban commuters, and residents of small 
towns. U.S. Department of Transportation's (DOT) just-released 
Conditions and Performance report documents how the growing backlog of 
transit system preservation needs now totals $85.9 billion. This 
backlog is up 9.7 percent since 2010 and will increase by $2.5 billion 
annually if funding stalls at current levels. The Department estimates 
that more than $8 billion in annual capital expenditures is needed to 
pay down this backlog over the next 20 years.
Reliable Federal Support Is Essential
    We are all acutely aware of the impending Highway Trust Fund 
revenue shortfall. We also fully recognize the difficult choices it 
presents: either identify additional revenues, deposit more General 
Fund revenues into the Trust Fund, or dramatically slash transportation 
investment. In crafting MAP-21 amid similarly sobering revenue 
projections 2 years ago, Congress rejected the notion of retreating 
from its longstanding role in supporting public transportation and 
supplemented dedicated revenues with a transfer from the General Fund. 
While this approach worked for a 2-year bill like MAP-21, and is 
certainly preferable to additional short-term extensions, it does not 
provide the needed predictability of a traditional, multiyear 
authorization bill backed by dedicated new revenue to support program 
growth.
    We believe our revenue challenges cannot await a solution in the 
next authorization bill. The U.S. DOT estimates that reimbursements to 
transit agencies and State highway departments may be delayed or 
reduced, due to cash flow shortfalls before MAP-21 expires at the end 
of this fiscal year. Later in my testimony, I provide examples of how 
several individual transit agencies would be impacted by the loss of 
Federal funding. These impacts are as devastating as they are 
avoidable. We urge you to act swiftly to prevent the service cuts, fare 
increases, and construction project suspensions these funding cuts 
could require. We are encouraged by recent revenue proposals from both 
President Obama and House Ways and Means Committee Chairman Camp to 
ensure the continued health of the Highway Trust Fund and sustained 
Federal investment in transportation, but we are also concerned about 
the ability to advance these proposals in a timely manner.
A Local, State, and Federal Partnership
    Providing public transportation choices has always been a 
partnership, involving public sector agencies at all levels of 
government working with nonprofit and private sector stakeholders. At 
the local level, strong public support for transit is reflected in a 77 
percent success rate over the past 5 years for ballot initiatives 
seeking funding for public transportation. Americans are also voting 
with their fare cards: since 2004, the growth in public transportation 
use has significantly outpaced the growth of both highway miles 
traveled and the U.S. population as a whole. The planning, development, 
and construction of hundreds of public transportation projects annually 
is carried out predominantly at the local level by transit agencies--
and their private sector partners--with deep roots in the communities 
they serve. In addition to improving mobility, transit projects shape 
land use and development patterns, generate jobs, and stimulate 
productivity gains that benefit the Nation and advance national goals. 
In short, well-designed transit service is a catalyst for economic 
growth. The Federal Government's longstanding role helps to ensure that 
these locally derived benefits are fully integrated into the national 
multimodal transportation network that is so essential to ensuring U.S. 
competiveness in our global economy.
    On a very fundamental level, Federal transportation funding keeps 
this economic engine running, as transit agencies can only plan and 
advance large, multiyear capital projects when they can be confident 
the resources will be there when they are ready to break ground. While 
we can all understand the appeal of ``shovel-ready'' projects, the 
capital projects needed to reduce our large backlog of capital needs 
are the product of comprehensive and fiscally constrained metropolitan 
and statewide planning decisions. In turn, such long-range planning 
requires steady, long-term investment by all levels of government.
    The returns on this investment have been substantial. From its 
start in President Reagan's successful ``Nickel for America'' campaign, 
dedicated Federal investment in public transportation has helped 
support ridership growth of 30 percent--that is nearly 2.5 billion more 
trips per year today than before this Federal funding commitment. For 
every dollar we invest in public transportation, we generate about $4 
in economic returns. And $1 billion in Federal transit investment 
fosters productivity gains that create or sustain 50,000 jobs. As these 
investment metrics make clear, local, and regional transportation 
improvements yield national benefits.
APTA's Recommendations for the Next Authorization Bill
    Communities across the country know that public transportation is a 
smart investment and have found creative ways to advance projects, but 
they cannot do it alone. Only through sustained, robust investment by 
all levels of government can we maintain what we have built and grow 
for the future. The more than 10 billion trips riders took last year 
are, in part, the product of decades of Federal support. In our 
authorization proposal, APTA seeks increased Federal funding in a 
multiyear bill; we must keep this momentum going.
Closing the Infrastructure Investment Gap
    As our impending revenue shortfall makes clear, funding uncertainty 
delays capital investments and drives up project costs. To ensure the 
reliable, long-term funding best suited to infrastructure investment, 
APTA urges Congress to enact a 6-year, $100 billion authorization for 
the Federal transit program that includes robust funding to grow the 
program from $10.7 billion in the current year to $22.2 billion in 
2020. Revenues into the Highway Trust Fund must increase to support 
this much needed growth.
    Our funding proposal is robust because our needs are real. APTA's 
authorization recommendations are based on needs identified in eight 
categories of equipment and facilities funded under the current Federal 
program. They are based on the need for 6-year investment from all 
sources--fares, local, State, and Federal--of $245 billion. APTA's 
investment requirements include the cost of bus replacements, demand 
response vehicles, rail vehicles, state-of-good-repair spending, New 
Starts and core capacity projects, and other costs.
    We ask that Congress identify dedicated funding that supplements 
current HTF revenues to ensure the long-term health and growth of 
Federal public transportation and highway programs through and beyond 
the next long-term authorization bill. We support the preservation and 
growth of revenues that go into the Mass Transit Account of the Highway 
Trust Fund and oppose efforts to devolve existing Federal surface 
transportation programs.
    Our proposal calls for increased funding across the Federal transit 
programs for Capital Investment Grants, State of Good Repair, Bus and 
Bus Facilities, and formula programs. Recognizing that large but 
infrequent bus rolling stock and facility projects are challenging to 
address with a limited formula program, APTA recommends restoring a 
discretionary component to the bus program and boosting overall bus 
program funding to pre-MAP-21 levels in a way that also allows for 
growth in all major programs.
Leveraging Limited Public Resources
    Transportation funding resources are constrained at all levels of 
government. Transit agencies continue to explore ways to make their 
limited funds go farther, including program reforms, cost-reduction 
measures, and greater leveraging of public dollars. While grant funding 
will remain the largest and most crucial source for transit capital 
investments, APTA supports a broad range of funding and finance 
solutions, including a number of tax incentives to encourage greater 
private investment in infrastructure as well as improvements to make 
Federal transportation credit programs more useful and affordable to 
smaller project borrowers.
Nationwide Solutions
    For several programs where transit stakeholders face common 
challenges nationwide, the Federal Government is best suited to take 
the lead. These national priorities include the Transit Cooperative 
Research Program (TCRP), Technical Assistance and Standards, and Human 
Resources and Training. To restore funding predictability to these 
programs, we recommend they be authorized as a $25 million annual set-
aside from the urban formula program. We also call for increased 
flexibility to use formula funds for training. With greater funding 
certainty, we can maximize the returns on this relatively modest 
investment: practical research results that are ready to deploy, common 
standards and best practices to improve efficiency at all systems, and 
workforce training solutions for our increasingly sophisticated 
industry.
    Assisting communities in the wake of disasters will remain a 
fundamental role of the Federal Government. We support MAP-21's new 
Public Transportation Emergency Relief program and urge Congress to 
fully and promptly fund transit relief and reconstruction projects in 
times of need.
Costs of Federal Divestment
    At a time when all factors--record-high ridership, the growing 
backlog of system preservation needs, and the broad economic benefits 
of investment--support far greater transit funding, we face the serious 
threat of cuts to the Federal program, as HTF revenues have not kept 
pace with needs. Transit agencies remain committed to providing the 
highest and safest level of service for their riders and would make 
every effort to mitigate the effects of any Federal funding cuts, but 
the potential for cuts in service, capital maintenance, and capital 
expansion projects are all too real.
    In their capital budgets, agencies would be required to reexamine 
existing commitments to address state-of-good-repair projects, and 
instead focus limited resources on maintaining safe service on fewer or 
less frequent lines. Our smaller systems would likely be the first to 
feel the impacts, because they often rely on Federal funding for a 
greater portion of basic operating costs than larger agencies with 
broader revenue sources.
    We urge Congress to find a revenue solution in time to prevent the 
significant impacts that a loss of Federal revenues would impose on 
transit riders and systems nationwide. For the Capital Metro system in 
Austin, Texas, Federal transit funding of $28 million represents 14 
percent of their operating budget. Without it, Capital Metro would have 
to reduce bus serve by 33 percent, or about 11 million trips annually.
    In Los Angeles, where the Metropolitan Transit Authority operates 6 
rail lines and 6.8 million revenue hours of bus service, the loss of 
Federal funds would require the MTA to shut down at least one rail line 
and cut over 1 million revenue hours of bus service. These sizable 
reductions in bus and rail service would be accompanied by dramatic 
fare increases, doubling the MTA's base fare from $1.50 to $3.00.
    The situation is difficult in Dallas, Texas, as well. The Dallas 
Area Rapid Transit System, or DART, expects it would initially need to 
draw heavily from its reserve fund, as its public and budget hearing 
requirements would make it almost impossible to make service cuts and 
fare increases quickly enough to cover for Federal cuts potentially 
just a few months away. DART estimates it would then need to cut its 69 
million annual fixed route trips by 15 to 20 percent--10 to 13 million 
trips--to absorb the Federal cuts. DART would also be forced to cut 
paratransit service down to the minimum geographic area required by 
Federal law, eliminating 25,000 to 50,000 trips from the 700,000 trips 
it currently provides each year.
    Some agencies have also warned of the snowball effect from losing 
Federal funds. For example, in Jacksonville, Florida, the Jacksonville 
Transit Authority has successfully leveraged State Development 
Transportation Credits as a soft match to Federal formula funds, saving 
$3.5 million annually. Without Federal funds, these savings disappear.
Conclusion
    As we face record-high transit ridership on increasingly aging 
systems, reaffirming the Federal commitment to the millions of 
Americans who ride public transportation is more essential than ever. 
APTA's recommendations for robust Federal funding in the next surface 
transportation authorization bill reflect our belief that Federal 
investment in transportation is an investment in American jobs, 
American communities, and American economic competitiveness. In the 
most mobile Nation in the world, public transportation links people, 
neighborhoods, and businesses--efficiently, safely, and reliably. 
Investment in public transportation is much more than building physical 
infrastructure; it is an expression of our collective national will to 
keep moving forward.
                                 ______
                                 
                 PREPARED STATEMENT OF BARBARA K. CLINE
President, Board of Directors, Community Transportation Association of 
         America, and Executive Director, Prarie Hills Transit
                             March 6, 2014
    Mr. Chairman, Ranking Member Crapo, and Members of the Committee, 
thank you for inviting me to appear before you today to discuss 
reauthorization of the Nation's surface transportation legislation--
Moving Ahead for Progress in the 21st Century Act, known as MAP-21--and 
the Federal role and current challenges to public transportation.
    I appear before you today as the President of the Community 
Transportation Association of America's (CTAA) Board of Directors, a 
national nonprofit, membership association committed to removing 
barriers to isolation and improving mobility for all people. The 
Association--founded in 1989--provides informational resources, 
technical assistance, training and certification, and many additional 
resources to communities, transportation providers, and other groups to 
increase mobility and improve the quality of community and public 
transportation.
    I am also the Executive Director of Prairie Hills Transit, located 
in Spearfish, S.D. Prairie Hills Transit serves a 12,000 square mile 
service area and grew from an operation that started with a single van 
to one today comprised of 38 vehicles and 50 employees in six South 
Dakota counties. I believe I am well-qualified to represent the more 
than 4,000 members of CTAA, as well as other rural transit providers 
like Prairie Hills Transit.
CTAA's Core Mobility Values
    Over the past 2 years, CTAA--through extensive outreach and 
engagement with its members and the larger community and public 
transportation industry across the Nation--has identified a series of 
core mobility values and specific policy recommendations to address the 
Nation's mobility future. These values have been consistently codified 
and strengthened throughout the history of Federal surface 
transportation legislation--including their current embodiment in MAP-
21--and must be continually reinforced and expanded upon in any 
subsequent reauthorization.
    As an association, we believe that mobility is a basic right for 
all Americans that requires Federal investment paired with support from 
State, county, and local governments, as well as the means to encourage 
partnerships with the private sector and nongovernmental interests. 
This need is triggered by a rising national population, increasing 
rural isolation, growing congestion and escalating climate change that 
demands greater community and public transportation options at the same 
time as regulations and policies place barriers to the development of 
new services while also making maintenance of existing systems more 
challenging.
    This national mobility need requires a strategy that increases 
investment by responding to growing demand while enhancing productivity 
in all communities, regardless of location or size. The same level of 
investment is necessary to support riders of community and public 
transportation, whether they are compelled to travel by need--ranging 
from older Americans and people with disabilities to veterans, tribal 
members and low-income workers--or choice. The investments we make now 
in improved options will return immense value for our entire society--
both today and in years to come. For it is true that the greatest 
Nation in the world should also be the world's leader in community and 
public transportation.
    The effects of Congressional failure to reauthorize the Nation's 
surface transportation legislation (MAP-21) would have devastating 
impacts not only on the members of CTAA, but--more importantly--the 
communities and passengers they serve. The current framework for our 
Nation's entire community and public transportation network depends on 
continued, reliable and sufficient Federal investment, which has 
largely been provided through the Mass Transit Account of the Highway 
Trust Fund. In recent years, routine shortfalls in the Highway Trust 
Fund have left Congressional leaders scrambling to cover the gap in 
revenue.
    Recent proposals from both the Obama administration and House of 
Representatives' Ways and Means Committee Chair Dave Camp offer 
encouraging signs that sufficient sources of revenue may be made 
available to support a meaningful reauthorization of MAP-21. Congress 
must act to ensure the Nation's community and public transportation 
network is able to continue to meet the Nation's current mobility needs 
and also respond to emerging needs, as well.
Policy Recommendations Overview
    While CTAA and its members are open to a wide range of potential 
revenue sources to support the Trust Fund and its Mass Transit Account, 
make no mistake: if Congress fails to act, there will be staggering 
consequences to the millions of people who depend on community and 
public transportation every day to access jobs, health care, community 
services, youth education and training, shopping and retail outlets, 
child care, and all the other elements of our communities that sustain 
our quality of life. Most immediately, service will be cut--often 
dramatically--at a time when more Americans than ever rely on these 
vital mobility options and fares will rise, often at the same time. 
Maintenance will suffer and vehicles will be further operated well 
beyond their recommended lifespan, all of which will impact reliability 
and on-time performance. Passengers will be the hardest hit, arriving 
to work late (or not at all), missing life-sustaining medical 
appointments and children will wait longer to be picked up from child 
care. In short, riders will pay more for less service that is also less 
reliable.
    In rural communities and small urban areas, the impacts of a lack 
of continued investment in mobility options will be felt even more 
acutely. These communities depend on the support of Federal programs to 
a greater degree than their counterparts in larger urbanized regions, 
as State investment is often inconsistent and local resources are often 
strained. There are no rainy day funds for the majority of rural and 
small urban transportation providers. At the same time, people in rural 
America and smaller cities typically have lower incomes and fewer 
mobility options at their disposal than those living in larger urban 
communities, magnifying the impacts of service cuts, disruptions and 
fare increases. The ramifications of a failure to reauthorize our 
Nation's surface transportation legislation will be disproportionately 
borne by rural and small urban Americans.
    Moreover, these startling outcomes only presuppose maintenance of 
currently available service, not those of which are also required to 
meet the steadily climbing need for new mobility options. In 
communities of all sizes and locations, people need expanded transit 
service--new buses, trains and vans; vanpools and bike routes--to reach 
vital destinations in their neighborhoods and regions. MAP-21 
represented a tepid response to this growing demand. Its successor must 
do far better in providing mobility operators the resources necessary 
to best serve their communities.
    As Congress undertakes the process to reauthorize our Nation's 
surface transportation legislation, CTAA and its members believe a 
series of structural foundations are necessary to maintain current 
mobility options and add new ones.
    Overall, the Federal transit program must receive growing 
investment to sustain all current community and public transportation 
operations--including both their capital and operating needs--along 
with a special focus on the growing demand for service in rural and 
small urban America. To this end, a renewed bus capital program that 
not only restores investment to pre-MAP-21 levels, but responds to the 
past 2 years of chronic underfunding is essential. No single issue is 
of greater concern to CTAA and its members.
    Additionally, new legislation must be stable and support long-term 
funding whereby the most responsive and efficient decisions are made. 
This requires a reauthorization period of at least five (5) years. The 
legislation's timeframe must be paired with dedicated, diversified 
revenue derived from sources beyond current levels of the Federal gas 
tax. Those sources could include increasing and/or indexing the Federal 
gas tax, or implementation of alternative revenue streams.
    CTAA and its members recommend that Congress renew its leadership 
role in the selection process of needed transit projects while also 
increasing investment levels to correspond with the costs of new 
Federal mandates imposed on transportation providers. We also recommend 
incentives for investment from the private sector and increased 
investment in growing nontraditional responses to mobility demands and 
in meeting the growing mobility needs of America's most vulnerable 
populations.
    These, among other more detailed recommendations and priorities for 
MAP-21 reauthorization from CTAA and its members relating to rural and 
small urban transit, operating and capital investment, the Section 5310 
and coordination/mobility management programs, nonprofit transit 
providers, mobility management, Federal regulations and planning can be 
found in the attachment that follows this statement.
The Case for Increased Investment
    CTAA and its members are committed to a growth strategy for all 
forms of surface transportation. Investment in our Nation's surface 
transportation infrastructure--particularly public and community 
transportation in rural and small-urban areas--has lagged behind 
demand. The continuing impact of aging in place, regionalizing rural 
employment and health care, as well as the bus capital crisis and 
rising community and passenger demand, make investments in rural and 
small urban transit in MAP-21's successor critical.
    In the third quarter of 2013, ridership on transit systems in 
communities with populations under 100,000 grew by 2.89 percent 
compared with the prior year--the fastest growing segment of the 
community and public transportation industry. Ridership in these 
smaller communities has, in fact, grown every year for the past 5 
years. Employment and medical trips make up the bulk of these growing 
trips, creating the type of positive outcomes that are the foundations 
of rural and small-urban transit.
    In rural and small-city community and public transportation, the 
lack of adequate Federal investment manifests itself in aging rolling 
stock and limited operations. Regulatory burdens have more dire 
consequences and finding local share to match Federal investment is 
more challenging. As stated above, the threat of no MAP-21 
reauthorization and the looming shortfall in the Mass Transit Account 
of the Highway Trust Fund has a vastly disproportionate impact on rural 
and small-urban transit operations, which rely more heavily on Federal 
investment.
The Looming Bus Capital Crisis
    The single greatest example of the lack of Federal investment in 
rural and small-urban transit is in the bus capital program. MAP-21 cut 
by half the traditional Federal program which rural and small-urban 
transit used exclusively to purchase buses. MAP-21's Section 5339 Bus 
and Bus Facilities Formula program provides only $1.25 million per 
State for rural bus replacement needs and allocates similarly meager 
amounts through a formula for small-urban areas. The result is a 
looming bus capital crisis.
    For example, in my home State of South Dakota, out of 377 total 
public and community transportation vehicles in service, 358--more than 
95 percent--exceed recommended useful life standards (5 years or more 
than 150,000 miles). Of those, 187 vehicles have been operating for 
more than 10 years! In 2013, 10 systems applied to receive investment 
for 24 new vehicles, but enough funding was awarded to purchase only 8 
of those 24 required vehicles. At current levels of investment, it 
would take nearly 20 years to replace all transit vehicles operating 
past their retirement age. For reference, in 2013, those systems 
carried more than 1.4 million riders and traveled more than 4.8 million 
miles.
    Small urban communities face similar challenges. In West Virginia, 
two small-urban transit systems are operating fleets where greater than 
51 percent of their vehicles exceed FTA's recommended retirement date, 
while another nine rural operators find that anywhere from 26 to 50 
percent of their vehicles are operating beyond recommended retirement.
    And, finally in New Jersey, more than 30 percent of the State's 
countywide community transit vehicles--service transporting that 
State's most vulnerable population--are at least 7 years old and have 
operated at least 175,000 miles, a total of 313 out of 995 vehicles.
    The lack of adequate bus capital funding has an equally dire 
consequence to rural and small-urban operating investment. As vehicles 
age, they become significantly more expensive to maintain, resulting in 
rising operating costs. Older buses tend to be less fuel efficient than 
newer ones, also increasing operating expenses. Smaller buses--widely 
in use in rural and small-urban systems--often have recommended 5-year 
service lives. The crisis in bus replacement at these agencies is no 
doubt exacerbated by the fact that these systems purchased many buses 
through the 2009 American Recovery and Reinvestment Act, vehicles which 
are now reaching the end of their useful lives.
    CTAA and its members support both formula and discretionary 
solutions to this bus capital crisis, and hope to work with members of 
the Senate Banking Committee as well as other members of Congress to 
find solutions in this reauthorization to ensure rural and small-urban 
bus operators access to the capital they need to continue to serve 
their communities and passengers.
Regulatory Relief
    The fact that this crisis coincides with the impending arrival of 
Federal transit safety regulations even further adds to the challenge 
facing rural and small-urban transit operators. These new regulations 
specifically cover a state of good repair and transit asset management. 
Yet, there is no specific state of good repair capital program for bus 
operators of any size as there is for traditional rail systems (Section 
5337), nor is there any additional Federal investment to help these 
smaller systems acquire the rolling stock assets needed to ensure 
system safety. CTAA and its members fully support transit safety 
efforts and initiatives and continue to cooperate with the Federal 
Transit Administration in its development of these important transit 
safety regulations. MAP-21 reauthorization is the time to ensure that 
the needed capital investment for rural and small-urban bus operators 
is available to fully meet the forthcoming safety regulations and 
requirements.
    In fact, CTAA and its members recommend that no new or additional 
Federal regulations be developed for rural and small-urban transit 
members without first developing a cost analysis. Further, these 
operators recommend that adequate Federal investment to implement new 
and additional regulations be part of the next surface transportation 
reauthorization bill.
Supporting Vulnerable Populations
    In MAP-21, the New Freedom program was combined with the Section 
5310 program, along with a subsequent new set of program guidance. CTAA 
and its members support both increasing Section 5310 investment as well 
as the ability of States to select programs within the Section 5310 
program--as was the case prior to MAP-21.
    Nonprofit agencies play a vital role in efficiently and cost-
effectively serving vulnerable populations in rural and urban areas 
alike. Therefore, we support adding a Job Access and Reverse Commute 
(JARC) maintenance goal or percentage set-aside in the Section 5307 
program, as well as developing language to incentivize and maintain the 
role of nonprofits in local procurements.
    Mobility Management strategies promote transit innovations that 
meet the growing and changing needs of all sized communities and offer 
right-sized approaches to serving vulnerable populations. CTAA and its 
members support investing in mobility management strategies to ensure 
cost-effective and efficient coordination of all human service 
transportation programs with community and public transportation and 
private operators into a full-fledged family of transportation 
services.
    Population demographics and health care policies and trends are the 
two most prominent factors driving transportation demand in rural and 
small-urban America. Rural communities are increasingly aging, just as 
the services designed for older Americans in rural communities become 
more dispersed and regional in nature. Longer, more expensive trips are 
the result of these trends.
    Health care trips in smaller communities and larger ones alike, 
have become inundated by demand for regular transportation to manage 
chronic conditions like dialysis, cancer treatments, physical/
occupational therapies and even behavioral health services. The 
traditional service models deployed by community and public 
transportation systems are being strained by the burgeoning demand for 
these trips--many of which come from outside the Medicaid arena where 
nonemergency transportation is not covered. Further, the expansion of 
Medicaid program enrollment through the Affordable Care Act will 
assuredly add to this already overwhelming transportation demand (see 
our recently released study on nonemergency medical transportation 
included in the attachment section).
A Time To Act
    It is vital that Congress acts decisively to reauthorize the 
Nation's surface transportation legislation by shoring up the Mass 
Transit Account of the Trust Fund and delivering crucial investment to 
America's community and public transportation systems and the millions 
of people they serve every day.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
                   PREPARED STATEMENT OF LARRY HANLEY
           International President, Amalgamated Transit Union
                             March 6, 2014
Introduction
    The Amalgamated Transit Union (ATU), the largest union in the 
United States representing public transit workers (including 
metropolitan, interstate, and school bus drivers; paratransit, light 
rail, subway, streetcar, and ferry boat operators; mechanics and other 
maintenance workers; clerks, baggage handlers, municipal employees, and 
others) is pleased to present testimony on the reauthorization of the 
Federal surface transportation bill and the challenges facing transit 
riders on behalf of our nearly 200,000 members in North America as well 
as the people who board transit vehicles 35 million times daily, 
relying on safe, reliable public transportation to carry on their 
lives.
    The Federal transit program turns 50 years old in 2014. Created by 
Congress in an effort to save our cities' crumbling network of private 
bus operations at a time when our Nation was coming apart at the seams 
due to the inequities in our society, the program has now come full 
circle.
    By the late 1960s, the expansion of highways and explosion in 
private automobile ownership nearly made buses obsolete, but just 10 
years later, people were flocking back to transit to beat soaring fuel 
prices during the energy crisis.
    Then in the 1980s, Americans went back to driving and started 
buying smaller fuel efficient cars to avoid getting stung at the pump 
again. Transit privatization schemes were initiated all across the 
Nation, and most failed. By the late 1990s, there was a transit 
renaissance launched by the passage of TEA-21, unprecedented bipartisan 
legislation which provided transit systems with guaranteed sizeable 
funding increases well into the new century. Ridership skyrocketed, as 
people all across the Nation started choosing transit like never 
before.
    However, since 2005 the Federal transit program, and as a result 
the American People, have been standing in place. Funding has been 
basically flat over the course of the past two reauthorization bills, 
budget guarantees have been repealed, and transit systems are running 
on fumes. Without a new revenue source for the Highway Trust Fund, 
Congress has been forced to bail out the program on several occasions 
in recent years, and the clock is ticking on the next shortfall.
    The 2008 fuel crisis pushed people out of their cars and into buses 
and trains once again, but this time the agencies could not handle the 
load, as they too were paralyzed by the skyrocketing price of gas. This 
and the plummeting economy resulted in unprecedented fare hikes, 
service cuts, outright route eliminations, and a new generation of 
privateers offering empty promises of better service at lower cost. 
Transit-dependent people lost their ride and many lost their 
livelihoods as a result.
    Today, as was the case in 1964, inequities in our society still 
exist, especially in the area of transportation. Service for the 
elderly and people with disabilities is substandard and in many places 
disgraceful. Intercity bus drivers are falling asleep at the wheel 
because they don't have the critical protections of the Fair Labor 
Standards Act (FLSA), and innocent people looking for an inexpensive 
ride to grandma's house are dying as a result. Transit operators are 
being assaulted at a record pace, putting passengers, automobile 
drivers, pedestrians and bikers in harm's way like never before. Even 
the tax code has a bias for people who use transit, as they receive far 
less monthly tax free benefits than those who drive to work.
    But now, rather than fleeing our cities like in the 1960s, people 
are moving back in record numbers, and transit systems are struggling 
to put service on the streets to meet higher demand. Outsourcing is 
becoming the norm and passengers are paying more and getting far less. 
America is desperately trying to reduce its dependence on foreign oil, 
but not enough transit is in place to make a true impact in this fight.
Executive Summary
    American cities are busting at the seams, and it is projected that 
more and more people will move to our urban centers within the next 
three decades. Without better public transportation, our Nation faces 
total gridlock. Yet, major inequalities still exist in Federal 
transportation law which favor travel by private automobile.
    The typical metropolitan resident can reach only about 30 percent 
of jobs in their area via transit within 90 minutes. Transit for most 
people is simply not convenient or practical, so they find 
transportation alternatives that pollute our air and sustain our 
dependence on foreign oil. Others who cannot afford a car are likely 
among the more than 7 percent of Americans who remain unemployed, 
because they cannot get to work.
    This proposal makes the case for significant increases in Federal 
transit funding to meet our mobility needs, now and into the future. 
ATU calls for doubling the size of the Federal transit program, and we 
identify sound, progressive revenue streams to pay for the program out 
of the dwindling Highway Trust Fund. Transit cuts keep coming at 
systems all across the Nation. The proposal calls for local control of 
transit funds so that transit systems can avoid having to keep brand 
new buses in the garage while slashing service at the same time.
    The centerpiece of the proposal is a major addition to the Federal 
transit program to address the poor quality of service provided to 
people with special needs. More than 20 years after the passage of the 
Americans With Disabilities Act (ADA), demand response service has been 
overrun with problems that seriously impact the quality of life for 
millions of Americans. The ATU's proposed TREAD program would provide 
$1 billion annually to address this mobility crisis.
    Outsourcing of fixed route bus service has more than doubled in 
recent years. The result has been deteriorating service and more fare 
hikes. Lower wages and reduced benefits paid by privateers are leading 
to dissatisfied workers. This culminates in major turnover issues, 
resulting in training problems, safety issues, etc. This proposal calls 
for the rejection of Federal policy that provides an advantage for the 
private sector at the local level.
    Passenger safety has become a huge issue in fixed route transit, as 
we have seen a dramatic increase in the level and intensity of 
senseless attacks on defenseless operators, putting everyone on the bus 
at risk. In addition, in too many cities, tight, computer-generated 
schedules and increased traffic congestion have created shifts in which 
no time is available to use the restroom, leading to highly distracted 
operators. Both of these issues raise major concerns, and ATU proposes 
commonsense solutions to enhance operator and passenger safety.
    Safety is also an issue on intercity buses, which are crashing at 
an alarming rate in recent years as the culture of the industry has 
changed dramatically. Bus drivers are falling asleep at the wheel 
because they are working grueling hours at abysmally low wages. And 
since intercity bus drivers are exempt from the Fair Labor Standards 
Act's (FLSA) overtime provisions, many drivers are forced to work 
second jobs during their so-called ``rest period'' in order to make 
ends meet. This proposal makes the case to lift the FLSA exemption.
    Finally, the public transportation industry, like many service-
based sectors in the United States, will be faced with major workforce 
challenges in the near future. A large percentage of the transit 
workforce will be retiring within the next few years. This proposal 
calls for Federal funding to provide training to workers so that they 
can perform their jobs adequately, move up the career ladder, and help 
the Nation's transit agencies operate at maximum efficiency.
Wanted: America's Urban Agenda
America in 30 years: Gridlocked?
    More Americans are living in cities now than a decade ago, 
according to U.S. Census data. In 2010, a total of 80.7 percent of 
Americans lived in urban areas. The population of urban areas grew by 
more than 12 percent, much faster than the country's growth rate of 9.7 
percent from 2000 to 2010. \1\
---------------------------------------------------------------------------
     \1\ ``More Americans Move to Cities in Past Decade-Census''. Lisa 
Lambert, Reuters, March 26, 2012.
---------------------------------------------------------------------------
    This trend is expected to continue. The percentage of Americans 
living in metropolitan areas is set to grow by roughly a third over the 
next three decades. \2\ Already today, roughly four-fifths of the 
country lives in large urban areas, and cities like Atlanta, Dallas, 
Houston, and Tampa--none of which have expansive transit systems--will 
likely see some of the fastest growth in years to come. Within the next 
30 years, the Phoenix-Mesa-Scottsdale area is projected to grow by more 
than 88 percent, swelling to more than 8 million people, the equivalent 
of New York City today. How in the world are the American people--a 
huge percentage of whom will be senior citizens by 2044--going to 
navigate around our urban centers without having access to safe, 
affordable, convenient, and reliable public transit?
---------------------------------------------------------------------------
     \2\ Outlook--Gross Metropolitan Product, and Critical Role of 
Transportation Infrastructure. Prepared for the United States 
Conference of Mayors and the Council on Metro Economies and the New 
American City by Global Insight, 2012.
---------------------------------------------------------------------------
    Today, we are already wasting 2.9 billion gallons of fuel--enough 
to fill the New Orleans Superdome four times--at a financial cost of 
$121 billion per year ($818 per commuter) just sitting in traffic. \3\ 
If trends are not dramatically reversed, our economy will be paralyzed 
in 30 years because people will not be able to get to work or spend 
their money at local businesses.
---------------------------------------------------------------------------
     \3\ 2012 Urban Mobility Report, Texas A&M Transportation 
Institute.
---------------------------------------------------------------------------
Crossroads
    The U.S. is in the midst of a boom in domestic oil production, 
thanks largely to new unconventional reserves in North Dakota and 
Texas. Lawmakers may assume that we are well on our way to plummeting 
fuel prices and energy independence. Some have actually called for the 
end of Federal funding for transit, putting the responsibility in the 
States' hands.
    This would be a mammoth mistake. Less dependent on foreign oil does 
not make us independent. If something happens to disrupt production in 
a major oil-exporting Nation, the price would skyrocket and all the 
shale oil in North Dakota wouldn't be enough to shield American drivers 
from even more expensive gas. While U.S. oil production has increased 
by a little more than 2 million barrels (a 44 percent increase) since 
2007, those additional barrels represent just 2 percent of the 90 
million barrels a day the world is consuming now. No wonder it's had 
little impact on the price at the pump. \4\
---------------------------------------------------------------------------
     \4\ ``America's Oil Boom Won't Make It Energy-Independent From 
Middle East Madness''. Bryan Walsh, Time Magazine, September 5, 2013.
---------------------------------------------------------------------------
    The only way to truly become energy-independent is to use less oil, 
and public transportation of course plays an important role in reducing 
the Nation's energy use and greenhouse gas emissions. According to the 
American Public Transportation Association (APTA), on a passenger mile 
basis, buses use only 84 percent as much fuel as automobiles, vans, and 
sports utility vehicles, and most rail transit vehicles and trolley 
buses emit little or no pollution since they are electrically 
propelled. Seeking relief from high fuel prices, people are turning to 
public transportation in record numbers: transit ridership in the U.S. 
is now at its highest level in five decades, at more than 10 billion 
annual trips.
Where Is Our Urban Agenda?
    Despite the obvious environmental and economic benefits of public 
transportation, more than 95 percent of Americans still commute to work 
in private automobiles. Most people believe that they can get to work 
faster and more efficiently via car, and unfortunately they are 
correct. Transit for most people is simply not convenient or practical, 
so they find transportation alternatives that pollute our air and 
sustain our dependence on foreign oil. Others who cannot afford a car 
may be one of the millions of Americans collecting unemployment checks 
because they simply can't get to work.
    According to a recent groundbreaking study, the typical 
metropolitan resident can reach only about 30 percent of jobs in their 
area via transit within an hour and a half. The percentage is even 
lower for workers in growing low-income suburban communities. \5\
---------------------------------------------------------------------------
     \5\ ``Missed Opportunity: Transit and Jobs in Metropolitan 
America''. Brookings Institution, 2011.
---------------------------------------------------------------------------
    Yet, transit continues to be funded at only a fraction of the 
highway program, and overall transportation investment is far short of 
demand. The Federal Transit Administration (FTA) estimates that the 
Nation's transit systems collectively have a state of good repair 
backlog that exceeds $78 billion. APTA's reauthorization proposal calls 
for a 13 percent annual increase for transit. The Obama administration 
proposed to double the size of the transit program in a recent budget 
submission. The bottom line is that transit needs to grow substantially 
if we are ever going to get people out of their cars, reduce our 
dependence on foreign oil, and slow down climate change.
    We will never move away from our auto-dependent society or get 
anywhere close to the level of transit ridership seen in Europe if we 
do not heavily invest in transit, target funds wisely, and allow 
systems to use those funds as they see fit.
Reasons for Optimism
    Trends are on our side. Americans have demonstrated that they are 
willing to raise their own taxes to pay for expanded green mobility 
options. Since 2000, more than 70 percent of public transportation 
measures on State and local ballots have passed. In addition, recent 
studies have shown that millennials favor moving back to cities and 
prefer using public transportation in lieu of private automobiles. In 
2011, the percentage of 16-to-24 year olds with driver's licenses 
dipped to a new low. Just over two-thirds of these young Americans (67 
percent) were licensed to drive in 2011, the lowest percentage since at 
least 1963. \6\
---------------------------------------------------------------------------
     \6\ ``As Youth Driver Licensing Dips Again, A Focus on the 
Millennials''. Tony Dutzik, www.DCStreetsblog.org, March 15, 2013.
---------------------------------------------------------------------------
Innovative Financing and Public Private Partnerships: Proceed With 
        Caution
    Meeting our responsibilities to provide infrastructure for our 
urban centers cannot be done strictly through Federal funding. The 
private sector has always played a robust role in the building of our 
transportation systems, and will continue to do so. The designing and 
building of long-term transportation projects may be appropriate for 
innovative financing, and several bills expanding so-called public-
private partnership (PPPs) have already been introduced during the 
113th Congress.
    The guaranteed and increased funding levels in place under TEA-21 
provided economic security that financial markets demand, spurring 
massive investment from the private sector. However, SAFETEA-LU and 
MAP-21 moved away from guaranteed funding, leading innovative finance 
programs into new directions which are dangerous for transportation 
policy.
    For example, several of the new innovative finance proposals 
introduced in this Congress would authorize transit projects to be 
funded outside of FTA's jurisdiction, raising the real prospect of 
fractured transportation systems which do not involve critical planning 
guidelines--Long-Range Transportation Plans and short-term 
Transportation Improvement Programs--and environmental reviews.
    In addition, these same bills have not included traditional labor 
protections. Transportation Labor supports new innovative finance 
mechanisms for transportation projects, such as tax credits and State 
and National Infrastructure Banks flowing through FTA on the condition 
that both the direct recipients of Federal dollars through the banks 
and tax credits and projects funded through subsequent generation banks 
and tax credit funding comply with basic Federal labor standards, 
including 49 U.S.C. 5333(b)--formerly Section 13(c) of the Federal 
Transit Act--and Davis-Bacon, providing economic and job security.
ATU Supports:
  <bullet>  Funding public transportation at $119 billion over the next 
        6 years, more than doubling the commitment to transit in 
        SAFETEA-LU, as called for in President Obama's surface 
        transportation reauthorization proposal released prior to MAP-
        21 (FY2012 Budget).
Funding Sources:
            Gas Tax
  <bullet>  H.R. 3636, the Update, Promote, and Develop America's 
        Transportation Essentials Act of 2013, which would phase in a 
        15 cent/gallon tax increase over the next 3 years on gasoline 
        and diesel.
            Robin Hood Tax
  <bullet>  H.R. 1579, the Inclusive Prosperity Act to impose a tax on 
        certain financial transactions to strengthen our financial 
        security, reduce market volatility, expand opportunity, and 
        stop shrinking the middle class. This proposal, also known as 
        the ``Robin Hood Tax'', could generate billions of dollars for 
        transportation infrastructure.
            National Infrastructure Bank
  <bullet>  H.R. 2553, the National Infrastructure Development Bank 
        Act, to responsibly create and fund a public bank to leverage 
        public and private dollars for meritorious infrastructure 
        projects of national or regional significance.
No End in Sight for Transit Cuts
    Due to shortages in State and local revenues, U.S. public transit 
systems carried out some of the steepest fare increases and deepest 
service cuts in history during the first 2 years of the recession. 
Since the beginning of 2009, approximately 85 percent of public transit 
systems have raised fares or cut service, and thousands of workers in 
the transit industry--a significant percentage of a ``green'' 
workforce--have been laid off. Fifty-six percent of transit systems cut 
rush hour service, 62 percent slashed off-peak service, and 40 percent 
reported reductions in geographic coverage. \7\
---------------------------------------------------------------------------
     \7\ ``Impacts of the Recession on Public Transportation 
Agencies''. Survey Results, March 2010. APTA.
---------------------------------------------------------------------------
    Policy makers who believe that the economy is back on track and the 
transit crisis is over should travel to Gettysburg, PA. Ironically, the 
site of one of the best-known and important Presidential speeches in 
American history on the issue of human equality lost Freedom Transit on 
December 30, 2013. The transit company, operated by Rabbittransit, 
eliminated fixed-route service on its Blue, Gray, and Lincoln lines and 
Freedom Transit's express shuttle to Harrisburg will be terminated June 
30, 2014. Without local matching funds, local officials made the 
difficult choice to cut off critical service in this rural area. \8\
---------------------------------------------------------------------------
     \8\ ``Freedom Transit Cuts Service''. The Evening Sun (Hanover, 
Pennsylvania), December 5, 2013.
---------------------------------------------------------------------------
    Facing a $75 million funding shortfall, King County Metro in 
Washington is dealing with a mobility crisis. If a stable funding 
source is not identified in the near future, 74 of Metro's 214 routes 
will be eliminated, while 107 routes would be reduced or revised. 
According to Metro in Seattle, if the funding is not found and the 
agency is forced to cut the services, it would be the loss of an 
unprecedented 14 million rides annually, and would revert Metro's 
service to levels not seen since 1997.
    Seniors and adolescents in Boston, MA, stung by the staggering 23 
percent fare increases in 2012 are speaking out and urging lawmakers to 
roll them back, as transit-dependent passengers with fixed income have 
been left to choose between travel and other necessities. The fare 
hikes increased rates disproportionately for seniors.
    Should elderly people who have lived through the Great Depression 
of the 1930s and World War II be required to spend precious moments 
during their final years on Earth publicly begging lawmakers to keep 
transit fares to a reasonable level? That is how 89-year old Ann 
Stewart, the former president of the Massachusetts Senior Action 
Council, spends her time. ``It is not affordable for those who need it 
now and those of us who might need it tomorrow,'' she said at a recent 
public hearing. \9\
---------------------------------------------------------------------------
     \9\ ``Transit Fares Irk Seniors, Youths''. Lowell Sun 
(Massachusetts), November 2, 2013.
---------------------------------------------------------------------------
Where Is Our Agenda To Help the Poor?
    From coast to coast, it is our Nation's poorest residents that 
continue to bear the brunt of transit service cuts and fare increases. 
In Palm Beach County, FL, over bitter objections from riders, officials 
voted unanimously in August of 2013 to increase fares--with the largest 
percentage increase going to the poorest riders. Fares were last raised 
as recently as 2008, and those who buy monthly passes will see the 
largest percentage increase. For a rider whose income is 75 percent of 
the Federal poverty level--someone who makes about $8,250 a year--the 
monthly pass increased by 50 percent, from $10 to $15 a month. By 
comparison, the fare for most riders is increasing by 33 percent. \10\
---------------------------------------------------------------------------
     \10\ ``County's Neediest Hit Hard by Bus Fare Hikes; County 
Commissioners Vote Unanimously for First Increase Since 2008''. Palm 
Beach Post (Florida), August 14, 2013.
---------------------------------------------------------------------------
Transit Benefits Should Be Made Permanent
    As if cutting routes was not enough, the Federal Government added 
insult to injury on January 1, 2014, and cut tax-free transit benefits, 
reaching into the pockets of transit riders and pulling out a wad of 
cash as a penalty for riding the bus or train.
    The monthly cap on Federal tax-free transit benefits, which allows 
riders to set aside wages in an account used exclusively for paying 
public transportation costs, was reduced from $245 to $130. At the same 
time, a similar credit allowed motorists for parking will increase to 
$250 per month. We are encouraging people to drive to work and 
increasing transit riders' costs by as much as $1,380 per year. \11\
---------------------------------------------------------------------------
     \11\ APTA
---------------------------------------------------------------------------
    The average American family devotes nearly 20 percent of its income 
to transportation--second only to housing. A two-person household can 
achieve an average annual savings of more than $9,700 by living with 
one less car and taking public transportation instead of driving. A 
permanent increase in this benefit means transit commuters have one 
less expense to worry about, and in today's economy, every dollar 
counts.
ATU Supports:

  <bullet>  Authorizing transit systems to use their Federal funding 
        for operating assistance when needed to avoid service cuts, 
        route eliminations, or fare increases.

  <bullet>  Allowing fuel to be classified as a capital expense.

  <bullet>  Eliminating the Federal tax code's bias against people 
        taking public transportation through inclusion of H.R. 2288, 
        the Commuter Parity Act of 2013, to establish permanent tax 
        credit parity between the parking and transit portions of the 
        transportation fringe benefit.
Paratransit: Fulfill the Promise of ADA
    Nearly a quarter century after the passage of the historic 
Americans With Disabilities Act (ADA) of 1990, transportation for 
people with major mobility issues remains a national disgrace. A U.S. 
Bureau of Transportation Statistics study found that 6 million people 
living with disabilities had difficulties accessing needed 
transportation. \12\
---------------------------------------------------------------------------
     \12\ ``Advocating For Transportation Systems Change; The State 
Independent Living Council and Independent Living Centers Push for 
Changes in Transportation''. PR Newswire, April 15, 2013.
---------------------------------------------------------------------------
    The ADA provided that it shall be considered discrimination for a 
public entity that operates a fixed-route transit system to fail to 
offer on-demand service, also known as paratransit or dial-a-ride, to 
people of any age with serious disabilities that is comparable to 
services provided to those without disabilities. Such service must be 
comparable and parallel to the fixed route service--offered on the same 
days and same times fixed route service is offered. In addition, at a 
minimum, paratransit must serve all areas within a corridor which 
extends \3/4\ of a mile on each side of each route served by the fixed 
route system. \13\ The idea of the bill was to remove the barriers that 
were preventing people with disabilities from living every aspect of 
their lives to the fullest extent.
---------------------------------------------------------------------------
     \13\ ``Riders' Guide to Public Transit for People With 
Disabilities. Meeting the Challenge Inc. and FTA'', CO268001 
(Cooperative Agreement).
---------------------------------------------------------------------------
    Unfortunately, despite the ADA, transportation options are still 
extremely limited for elderly and disabled Americans, leading to 
isolation and diminished health.
People With Disabilities: Deserving of Safe, Affordable, Dependable 
        Transportation
    ADA paratransit services are incredibly expensive to operate. The 
U.S. spent over $3.6 billion in 2011 to provide ADA paratransit 
services, an almost 200 percent increase from 1999, even though 
ridership only went up 49 percent. An average ADA one-way paratransit 
trip cost $34.59 in 2011, up from $16.09 in 1999 (not adjusted for 
inflation). \14\ The average cost of providing an ADA paratransit trip 
is an estimated three-and-a-half times more expensive than the average 
cost of a fixed-route trip.'' \15\ Paratransit ridership makes up 2 
percent of public transit ridership nationwide but 13 percent of 
operating costs. \16\
---------------------------------------------------------------------------
     \14\ Guest Column (submitted by the Innovation in Infrastructure 
Program at the Urban Institute); ``Roadblocks Ahead for Senior 
Mobility''. The Atlanta Journal-Constitution, June 18, 2013.
     \15\ ``ADA Paratransit Services; Demand Has Increased, But Little 
Is Known About Compliance''. Government Accountability Office, 2012.
     \16\ ``Cities' Paratransit Services Face Cutbacks, Fare 
Increases''. USA Today, April 9, 2009.
---------------------------------------------------------------------------
    With costs soaring and nowhere to turn, transit systems have over 
the years outsourced more and more paratransit work. Today, nearly 80 
percent of the Nation's paratransit service is contracted out by U.S. 
transit systems to private, usually foreign transit companies which too 
often bid too low to realistically meet the standards set forth in the 
request for proposal from the transit system in order to secure the 
service. In addition to cost, transit systems readily admit that 
contracting ADA paratransit allows agencies to remove themselves from 
the day-to-day operations and reduces the risk and liability associated 
with operational responsibility. \17\
---------------------------------------------------------------------------
     \17\ ``Public Transit: Transit Agencies' Use of Contracting To 
Provide Service''. Government Accountability Office, September 2013.
---------------------------------------------------------------------------
    Is that consistent with the legislative intent and true spirit of 
the ADA?
Service Quality Issues
    Demand response service nationwide has been overrun with problems 
that seriously impact the quality of life for millions of Americans. 
Horror stories are common for frail, elderly, blind, paraplegic, and 
other disabled citizens, including veterans. Quality of service issues 
in paratransit are mind numbing, and anyone who is related to a senior 
citizen, wounded veteran, or other person with disabilities knows this 
all too well.
    On-time performance is a major problem, caused by poor planning and 
unrealistic schedules. Trips are often scheduled too close together, 
and drivers say their schedules are impossible to keep. Pick up times 
are too often far ahead of the needed arrival time at the destination, 
leaving customers waiting outside and unprotected in varying types of 
weather conditions. In many locations, when customers are delivered 
late to their destination, no accommodation is made to pick them up at 
a later time.
    Many customers report that reservation agents do not ensure that 
their address is correct, resulting in the driver going to the wrong 
address and documenting the customer as a ``no-show.'' Moreover, 
persons with disabilities nationwide complain that the reservation 
process takes too long. Some disabled riders say the problem is not 
just on-time pickups--it is being stuck in a paratransit van for hours 
while other riders are picked up and dropped off. In some cases, people 
with very special needs are literally being held hostage for hours.
    And while transit agencies make every effort to push elderly and 
disabled persons onto fixed route buses, unfortunately individuals 
often encounter poor maintenance of the accessibility equipment and 
inadequate wheelchair securements.
Turnover = Poor Service Quality
    The most important reason for the poor quality of service in 
paratransit is turnover, and this is of course tied directly to wages 
and benefits. According to the most recent national study, the average 
starting wage for ADA paratransit vehicle operators employed by private 
contractors ranges from $7 to just over $14.00 per hour and averaged 
$10.47. Vehicle operators employed by public agencies that provide 
services in-house are paid from $9.50 to $15.77, with the average 
starting wage being $12.06. Only 75 percent of private contractors 
offer individual health care coverage to full-time operators, and only 
68 percent provide family coverage. Only 19 percent of companies offer 
health benefits to part-time vehicle operators. On average, full-time 
vehicle operators are required to pay 33 percent of individual coverage 
and 50 percent of family coverage, a cost that is often out-of-reach 
given the hourly wages.
    A 2008 FTA compliance review conducted of the Metropolitan Transit 
System (MTS) in San Diego indicated an 82 percent annual turnover rate 
among ADA paratransit vehicle operators. The report states that ``This 
high turnover rate results in a high percentage of relatively 
inexperienced operators and may affect service efficiency and service 
quality.'' An FTA review of Pierce Transit in Lakewood, Washington, in 
2007 indicated that the major private contractor, which provided about 
74 percent of the service, was experiencing an 80 percent turnover rate 
among operators. Meanwhile, the portion of Pierce Transit's in-house 
paratransit service reported almost no vehicle operator turnover--their 
average public sector ADA paratransit operator has an average tenure of 
14 years.
    The same study found a statistically significant relationship 
between compensation and turnover. The level of starting wages was 
shown to account for 21 percent of the turnover reported, and turnover 
can be lowered by 3.5 percent to 5.1 percent for every $1 increase in 
starting wage. \18\
---------------------------------------------------------------------------
     \18\ ``Vehicle Operator Recruitment, Retention, and Performance in 
ADA Complementary Paratransit Operations''. Transit Cooperative 
Research Program (TCRP) Report #132, 2010.
---------------------------------------------------------------------------
Problems Will Only Grow
    It is expected that the proportion of older Americans to the total 
population will be much higher in the future years. According to the 
U.S. Census ``in 2050, the number of Americans aged 65 and older is 
projected to be 88.5 million, more than double the approximate 
population of 40.2 million in 2010''. \19\ Most of the increase is 
linked with the baby boomers that entered into this category in 2011. 
This growth will have huge implications on public transit since one in 
five Americans 65 and older do not drive. \20\
---------------------------------------------------------------------------
     \19\ ``The Next Four Decades: The Older Population in the United 
States: 2010 to 2050 Population Estimates and Projections'', U.S. 
Census Bureau, 2010.
     \20\ ``Aging Americans: Stranded Without Options''. Linda Bailey, 
Surface Transportation Policy Project, 2004.
---------------------------------------------------------------------------
Summary--A Mobility Nightmare for People With Special Needs
    Paratransit customers living on fixed income cannot afford to pay 
higher fares. Transit systems which are making tough decisions every 
day, balancing the needs of fixed route services, cannot afford the 
huge costs associated with transit for people with special needs, so 
they outsource the work and hope for the best. Private contractors 
making lofty promises that cannot possibly be honored are locking 
cities into multiyear contracts and failing miserably, providing awful 
service that is not fit for anyone, especially frail and vulnerable 
people. Contractors deliberately use small vans and taxi services on a 
regular basis, raising serious health and safety issues as drug and 
alcohol testing requirements and other regulations applicable to fixed 
route and paratransit operators in larger vehicles do not apply.
    If a person with special needs lives within \3/4\ of a mile of a 
bus line, they can get access to this substandard service. If not, no 
legal obligation exists to serve their basic mobility needs, and 
transit systems are walking away from them due to financial 
constraints.
    People with disabilities, including wounded veterans and seniors, 
deserve transit that is respectful, equitable, accessible, and 
dependable.
Transit Respectful Equitable Accessible Dependable (TREAD).
    ATU proposes a new funding stream known as the TREAD Program.
TREAD Overview
  <bullet>  Funding: ADA has been an unfunded mandate since 1990. It is 
        time for a separate, substantial funding stream dedicated 
        toward the provision of first class paratransit service. As 
        noted above, we spend nearly $4 billion annually to provide ADA 
        paratransit services, but FTA is authorized only to grant a few 
        hundred million per year (Section 5310)--and most transit 
        systems see little if any of this money. TREAD should be funded 
        at a minimum of $1 billion annually on a formula basis, and 
        increase substantially as our population ages. Eligible grant 
        recipients should include transit systems of all sizes, and 
        such recipients should be authorized to use such funds as they 
        see fit to meet the needs of people with special needs--
        capital, operations, or maintenance. Operating assistance 
        requirements applicable to fixed route should not apply. A 
        person with disabilities living in a rural area has the same 
        special needs as a person residing in the big city.

  <bullet>  Training: Transit agencies report that a major reason for 
        contracting is that ADA paratransit requires specialized 
        training and equipment that can be difficult to provide because 
        agencies may lack staff, expertise, or resources needed to 
        train workers. TREAD would authorize funding for these 
        activities.

  <bullet>  Delaying Service Cuts: The astounding service cuts and 
        outright elimination of routes on fixed routes has wreaked 
        havoc for people with disabilities, especially those using 
        paratransit within \3/4\ of a mile of the slashed routes. Under 
        the TREAD program, if a transit system cuts a fixed route bus 
        line, they would not be authorized to cut paratransit service 
        to any person in that service area for a period of at least 2 
        years. People with special needs and their families need more 
        time to adjust to these changes.

  <bullet>  Coordinating: TREAD should not in any way impact the 
        current Section 5310 program which allows private nonprofit 
        groups to provide critical mobility options in rural areas. 
        TREAD and 5310 should in fact be integrated to the greatest 
        extent possible with the Federal Coordinating Council on Access 
        and Mobility (CCAM), which coordinates over 60 Federal programs 
        that fund services for transportation-challenged populations.

  <bullet>  Closing the Van Safety Gap: Commercial drivers' license 
        requirements--including drug and alcohol testing--and physical 
        exam mandates should be mandated for all paratransit van 
        operators, regardless of vehicle size. Persons with 
        disabilities traveling in vans with less than 9-15 passengers 
        have the same special needs as those in larger vehicles.
ATU Supports:
  <bullet>  Creation of the TREAD Program to finally provide people 
        with special needs riding paratransit the same mobility options 
        as people who rely on fixed route public transportation 
        services.

  <bullet>  Meeting our commitments to veterans and military families 
        by providing access to transportation options that facilitate 
        community integration and participation.
Safety and Security
An Epidemic of Assaults on Operators
    Passengers lucky enough to still have some level of fixed route 
service have been forced to dig deeper into their own pockets. These 
fare hikes--which have occurred almost everywhere--are essentially tax 
increases, and of course, the individuals responsible for the 
collection of these taxes are bus operators, the members of our union 
who serve as the face of hundreds of the transit systems across the 
Nation. People don't like paying more for inferior service, so quite 
often they take out their frustrations on the drivers. In the past 5 
years, we have seen a dramatic increase in the level and intensity of 
senseless attacks on defenseless operators. Drivers have been punched, 
slapped, stabbed, shot, and have had bodily fluids thrown upon them. 
And they are confronting all of this while trying to safely steer their 
vehicles through traffic, protecting the lives of passengers, 
pedestrians, and other drivers who are seriously distracted by today's 
hand-held gadgets.
    Transit workers are at higher risk for violence than are workers in 
many other occupations. According to the Bureau of Labor Statistics and 
the National Institute for Occupational Safety and Health, there is an 
increased risk of workplace violence for workers who have direct 
contact with the public, have mobile workplaces or deliver services, 
work in community settings, deliver passengers, handle money, and work 
in small numbers. \21\
---------------------------------------------------------------------------
     \21\ ``Practices To Protect Bus Operators From Passenger 
Assault''. TCRP Synthesis #93, 2011.
---------------------------------------------------------------------------
    When a passenger assaults a bus operator while he or she is driving 
the vehicle, transit riders, auto drivers, and pedestrians are placed 
at risk. In California, an Omnitrans bus operator was stabbed in 2010 
while operating a bus. After he was attacked, the bus veered off the 
road and crashed into a tree. The operator, a 15-year veteran, died, 
leaving behind a wife and eight children. \22\
---------------------------------------------------------------------------
     \22\ TCRP Synthesis Report #93.
---------------------------------------------------------------------------
Lack of Restroom Breaks a Huge Health and Safety Issue
    In addition, in too many cities, tight computer-generated schedules 
and increased traffic congestion have created shifts in which no time 
is available to use the restroom. As a result, bus operators restrict 
their fluid intake, starving internal organs, leading to a whole host 
of health problems, including urinary tract infections, kidney 
problems, etc. Though they do not like to talk about it publicly, 
drivers who do not resort to relieving themselves in cups wind up 
staining driver seats through involuntary urination. Women, who make up 
a growing segment of our membership, cannot simply urinate out the back 
doors of the bus like their male counterparts are forced to do. 
Paratransit operators often have no designated breaks whatsoever 
because dispatch tends to build those routes while the vehicles are 
still on the road, and the drivers of course may not leave elderly and 
disabled passengers alone.
    Furthermore, while the focus of policy makers at all levels of 
government in recent years has been on distracted driving caused by 
cell phone use or driving while impaired, recent studies indicate that 
driving while holding it in (is just as dangerous. The discomfort and 
stress of holding it in make it more difficult to operate a vehicle 
safely and effectively. Operators report being distracted and driving 
faster when under this kind of pressure. One laboratory study found 
that not responding to an extreme urge to urinate affected attention 
and thinking. The effect was equal to that of staying awake for 24 
hours or having a blood alcohol level (BAC) of 0.05 percent. For 
comparison, a commercial driver would be disqualified at a BAC of 0.04 
percent. \23\
---------------------------------------------------------------------------
     \23\ ``The Effect of Acute Increase in Urge To Void on Cognitive 
Function in Healthy Adults'', Neurourology and Urodynamics 30:183-187 
(2011).
---------------------------------------------------------------------------
    A few years ago, a TriMet (Portland, OR) bus operator was in a 
hurry to take a restroom break when she was crushed to death by her own 
bus. She was 6 minutes late when she pulled her bus into a transit 
center, left the vehicle running in forward gear and failed to properly 
set the parking brake. The 27-year veteran hurriedly walked in front of 
the bus, reached in the driver's window to pull a lever to close the 
doors, and then walked back across the front of the bus on her way to 
the restroom. When she closed the door, the brakes were released after 
a one-and-a-half-second delay, and the bus struck her, pinned her to a 
bus stop sign and killed her instantly.
    The health and safety issues confronting our members and the riding 
public due to the lack of clear and sensible policies at transit 
systems across the U.S. are staggering.
ATU Supports:
  <bullet>  Requiring newly manufactured vehicles to include 
        workstation changes to protect operators. While airplane 
        cockpits and train locomotives are completely off limits to 
        passengers, transit buses are wide open. Driver shields, 
        drivers' side doors and other ideas must be on the table, as 
        should retrofitting of existing vehicles. Research is now 
        ongoing to determine the best options.

  <bullet>  Mandating that transit agency (bus and rail) comprehensive 
        safety plans address assault and restroom break matters. No 
        safety plan should be eligible for FTA certification unless it 
        receives the official approval of represented employees of the 
        grantee. Such a process will ensure a credible and enforceable 
        plan that addresses the real safety concerns of all involved.
Transit Privatization: Riders First
    If it is not our members being punched in the gut by the funding 
shortages, it is the passengers, who have been hit with an onslaught of 
failed transit privatization experiments around every corner. Between 
1998 and 2009, privately contracted service for fixed route bus service 
more than doubled. \24\ The poor economy is a breeding ground for the 
profit-seeking transit contractors to make their case to local 
officials that they can somehow deliver better service at lower cost. 
Despite this, MAP-21 included language that mandated a GAO study to 
identify impediments to outsourcing. Other provisions were also 
included to provide private sector transit operators--largely foreign 
corporations--with an unfair advantage.
---------------------------------------------------------------------------
     \24\ ``Doing More With Less: Competitive Contracting Changes in 
SAFETEA-LU Reauthorization''. The Affordable Commuting Coalition.
---------------------------------------------------------------------------
    The result has been deteriorating service, more fare hikes, and 
serious safety issues. When transit systems privatize operations, they 
lose control of their ability to respond to riders' concerns about 
quality of service issues, even as foreign companies drive service into 
the ground. Lower wages and reduced benefits are the open game plan of 
private transit providers, leading to dissatisfied workers. This 
culminates in major turnover issues, resulting in training problems, 
safety issues, etc. These companies are motivated only by profit rather 
than the provision of quality, affordable service for people who rely 
on transit.
False Promises
    Transit privatization is based on questionable and at times false 
assumptions regarding competition, cost, and the mechanisms used to 
calculate these and other matters. No one in private sector would 
contract out a crucial internal operation without knowing the full 
scope of management issues. The public sector deserves the same 
respect. Private firms don't typically contract out work that involves 
their core customer base directly nor do they give control of their 
capital equipment to outsiders. For contracting out to work in public 
transit, that is precisely what is required.
    In the 1980s, private transit providers, promising that competition 
would drive up efficiency, often cited assumptions about so-called 
public sector ``monopolies'' and the lack of incentives for public 
sector workers to perform at a high level. However, over time, due to 
the unique nature of the transit industry, the multiple private 
companies involved in transit have shrunk to just a handful as huge 
foreign corporations have absorbed many small private providers. As a 
result, ironically, it is now these private companies that have a 
monopoly on transit outsourcing, and they have in fact lost the 
incentive to provide high quality service. They enter into long-term 
contracts with no accountability, cutting corners wherever possible, 
leading to major service, maintenance, and safety issues.
Hidden Costs
    According to a study of data from the National Transit Database, 
privatized systems pay drivers far less, and offer fewer benefits than 
public agencies. By offering reduced benefits and wages, private 
transit operators claim to offer higher labor efficiency--the same 
level of service at a lower cost. However, contracted transit workers 
work more overtime than publicly employed transit workers, which can 
undercut much of the labor savings. Moreover, private contractors have 
higher insurance and training costs in part because they have 
significantly higher turnover rates. \25\
---------------------------------------------------------------------------
     \25\ ``Transit and Contracts: What's Best for Drivers?'' Access, 
Songju Kim and Martin Wachs, 2006.
---------------------------------------------------------------------------
    Monitoring the contractors is also a significant hidden cost of 
privatization. For example, in March 2013, the Washington Metropolitan 
Area Transit Authority signed a contract with a private company to 
oversee the performance of the three transit contractors that operate 
its ADA paratransit services--a contract to monitor the contractors! 
\26\
---------------------------------------------------------------------------
     \26\ ``Public Transit: Transit Agencies' Use of Contracting To 
Provide Service''. Government Accountability Office, September 2013.
---------------------------------------------------------------------------
    The most efficient way to guard against these hidden costs is to 
require transit grant recipients to use the ``Avoidable Cost Model'' of 
accounting to determine the actual cost of providing a service. \27\ 
This model acts to properly include costs such as public management 
oversight of the private provider and other transaction costs including 
the loss of in-house expertise, severance payments to end existing 
public service, and increased insurance and training costs associated 
with high turnover. The Avoidable Cost Model can better identify 
potential savings from variable costs while properly quantifying fixed 
costs between the public and private alternatives. It is the most 
accurate method to analyze the full costs of specific transit 
privatization schemes. To ensure that public dollars are spent wisely 
and efficiently, policy makers need to establish parameters that will 
measure the broadest costs of an alternate privatization scheme to a 
public service.
---------------------------------------------------------------------------
     \27\ Elliott Sclar, Director of the Center for Sustainable Urban 
Development and Professor of Urban Planning and International Affairs, 
Columbia University.
---------------------------------------------------------------------------
Outsourcing Conclusions
    The Federal Government should not intrude on local decision making 
in transit. Mandated or minimum provisions on competitive bidding 
without appropriate standards for decision making serves to reduce the 
standard of living for workers and diminish the transportation service 
provided to communities. It can also result in turnover, safety, and 
security issues. Careful scrutiny is needed.
    The incredibly open and honest private companies' selling point to 
cities is to provide savings by paying workers less, eliminating 
pensions and offering fewer benefits, deterring employees from 
remaining at transit agencies long enough to reach the top of the pay 
scale. This is about taking a professional workforce and turning it 
into a part time job, not appropriate for an industry where employees 
are driving massive vehicles and entrusted with the lives of millions 
of passengers each day. Policy makers need to take a close look at what 
these private companies are doing to our transit systems and the impact 
that these arrangements are having on working families. We need to 
ensure that transportation in our communities is not further 
diminished.
ATU Supports:
  <bullet>  Repealing provisions of current law that provide an unfair 
        advantage to private contractors, including those that 
        basically require FTA to become a marketing arm of the private 
        sector.

  <bullet>  Requiring use of the Avoidable Cost Model in determining 
        whether to outsource public transit services.

  <bullet>  Ensuring that the methodology and criteria for service 
        selection and final decisions must continue to be left to local 
        decision makers, consistent with applicable laws, collective 
        bargaining agreements, and other pertinent agreements.
Transit Labor Protections
Preserve Section 13(c) Transit Employee Labor Protections
    The U.S. public transportation industry has experienced remarkable 
labor relations stability during the 50 years of the Federal transit 
program. This has allowed transit employees to go about the business of 
their most important role: Moving America Safely.
    The basis for five decades of labor-management cooperation is 
Section 5333(b) of Title 49 of the United States Code (formerly Section 
13(c) of the Federal Transit Act), which states that when Federal 
funds, most recently authorized under MAP-21, are used to acquire, 
improve or operate a transit system, there must be arrangements to 
protect the rights of affected transit employees.
    The crucial so-called Section 13(c) provisions ensure the 
continuation of collective bargaining rights and benefits for nearly 
360,000 urban, suburban, and rural transit employees under existing 
collective bargaining agreements. The statute protects transit workers 
from adverse effects that may arise when Federal dollars are invested 
in their local transit systems. This sensible, balanced system fosters 
unmatched labor-management stability, ensuring a highly trained, 
experienced, safe, and professional workforce, allowing for the 
development of significant technological, structural, and productivity 
improvements.
    Federal reports concerning Section 13(c) have found that the 
provision has functioned exactly as intended, and has not interfered 
with the efficient provision of transit services, clearly 
substantiating the ATU's long-standing position that Section 13(c), 
while providing important collective bargaining and job protection, has 
helped to improve working relationships between management and labor.
No Obstacle To Contracting Out
    Historically, one of the major issues raised by Section 13(c) 
critics has been that it impairs the ability of transit agencies to 
contract out for transit services. This is absolutely not true. As 
stated in a 2013 GAO report on contracting out (mandated by MAP-21), 
``According to officials at DOL, after a search of their records and to 
the best of their knowledge, there has never been an instance where a 
transit agency has been unable to contract out public transit 
operations and other services because doing so would jeopardize Section 
13(c) certification from DOL.'' \28\
---------------------------------------------------------------------------
     \28\ ``Public Transit: Transit Agencies' Use of Contracting to 
Provide Service''. Government Accountability Office, September 2013.
---------------------------------------------------------------------------
ATU Supports:
  <bullet>  Continuation of the critical transit employee labor 
        protections provided by Section 13(c) of the Federal Transit 
        Act.

  <bullet>  Application of Section 13(c) protections to any new Federal 
        transit programs or innovative financing mechanisms created 
        through MAP-21's reauthorization.
Sudden Death Overtime: A Commonsense Bus Safety Proposal
    In response to a recent spike in fatal intercity bus accidents, the 
U.S. Department of Transportation (DOT) in December of 2013 announced a 
national crackdown to take unscrupulous bus operators off the road. 
Regulatory authorities had taken similar measures in 2011 after a 
string of fatal bus crashes.
    While it is appropriate for law enforcement to continue the 
crackdown to protect the safety of over-the-road bus passengers, these 
steps do not even begin to address the core issue which is at the root 
of intercity bus crashes which annually kill about 50 people in the 
U.S. and injure approximately 1,000 other innocent passengers who are 
simply hoping to get to their destination in the least expensive way 
possible. The current safety issues plaguing intercity buses are 
directly linked to driver fatigue.
Three Times as Many Killed on Buses Than Airplanes
    When a commercial airplane crashes it is a major news story and 
most media outlets will cover the event 24-7. When a fatal bus accident 
occurs it is usually a 1-day story that receives minimal media 
attention. The 2009 Colgan Air accident in Buffalo, which took 50 
lives, and the San Francisco Asiana Airlines crash of 2013 in which 
three died are the only major airline crashes in the last few years. 
Meanwhile there have been numerous bus accidents including the horrific 
Bronx accident that killed 15, the Virginia crash killing 4 and 
countless others. In fact, over the last decade three times as many 
people were killed as a result of intercity bus accidents as compared 
to commercial airline crashes.
Low Wages, Extreme Fatigue
    When an intercity bus crashes, especially when no other vehicles 
are involved in the accident, there is a high likelihood that the 
driver of that bus fell asleep at the wheel. Hundreds of nonunion 
intercity bus companies--usually tiny operations that have only a few 
buses--typically pay their drivers incredibly low wages. As a result, 
bus drivers are being forced to work 100 hours a week or more just to 
make a living. If they are not driving a bus for that many hours, there 
is an excellent chance that the driver works two or three other jobs in 
order to make ends meet. Unsuspecting customers simply do not know that 
they are riding with drivers who are falling asleep because they never 
rest.
    According to the National Transportation Safety Board (NTSB), 
driver related problems are responsible for 60 percent of the 
fatalities occurring in crashes, while the condition of the vehicle 
accounts for only 20 percent of the fatalities. Driver fatigue is 
responsible for a staggering 36 percent of the fatalities. It is the 
number one cause of fatal accidents, far above road conditions (2 
percent) and inattention (6 percent). \29\
---------------------------------------------------------------------------
     \29\ U.S. DOT Motorcoach Safety Action Plan, November, 2009.
---------------------------------------------------------------------------
Fair Labor Standards Act Exemption
    Under the FLSA, covered nonexempt employees must receive overtime 
pay for hours worked over 40 per workweek at a rate not less than one 
and one-half times the regular rate of pay. But Section 13(b)(1) of the 
FLSA provides an exemption from the overtime pay requirements for ``Any 
employee with respect to whom the Secretary of Transportation has power 
to establish qualifications and maximum hours of service pursuant to 
the provisions of section 204 of the Motor Carrier Act, 1935 
(recodified at 49 U.S.C. 31502).'' This exemption is applicable to 
drivers, helpers, loaders, or mechanics whose duties affect the safety 
of operation of commercial motor vehicles in transportation on public 
highways in interstate commerce.
    Congress apparently created this exemption to eliminate any 
conflict between the jurisdiction exercised by the Department of Labor 
over the FLSA and the mutually exclusive jurisdiction exercised by the 
Department of Transportation over hours of service issues. However, 
there is no necessary inconsistency between enforcing rigid maximum 
hours of service for safety purposes and at the same time, within those 
limitations, requiring compliance with the increased rates of pay for 
overtime work. In fact, both issues are paramount to safety, and they 
are clearly linked. When drivers are not paid well, including 
appropriate overtime rates, they are going to be pushed to make a 
living elsewhere, providing them little time to rest and turning them 
into weary operators. But only a 10 percent higher driver base pay rate 
leads to a staggering 34 percent lower probability of a crash. \30\
---------------------------------------------------------------------------
     \30\ ``Paying for Safety: An Economic Analysis of the Effect of 
Compensation on Truck Driver Safety'', Michael H. Belzer, 2002.
---------------------------------------------------------------------------
MAP-21: Ensuring That Corpses Are Strapped In
    MAP-21 required motorcoaches to be installed with safety seat 
belts, advanced glazing in each portal to prevent passenger ejection, 
and stability enhancing technology to reduce the number and frequency 
of rollover crashes, among other requirements. With its focus on 
seatbelts, vehicle structural integrity, and keeping unsafe bus owners 
out of business, the bill had good intentions, including many overdue 
provisions.
    Unfortunately, the bill still leaves passengers vulnerable because 
it ignores the key issue at the heart of intercity bus crashes: driver 
fatigue. Common sense tells us that while maintaining the structural 
integrity of a bus is critically important, if a 40,000 pound vehicle 
traveling at a high rate of speed overturns and smashes into a bridge 
or falls over a cliff, the lives of the occupants are going to be in 
grave danger, even if they are strapped in and the vehicle has the 
strength of a tank.
    The real problem is that bus drivers are falling asleep at the 
wheel because they are working grueling hours at abysmally low wages. 
And since intercity bus drivers are exempt from the FLSA's overtime 
provisions, many drivers are forced to work second jobs during their 
so-called ``rest period'' in order to make ends meet.
    The Driver Fatigue Prevention Act (S.487) would apply FLSA's 
overtime provisions--which for decades have covered the majority of 
American workers--to intercity bus drivers. Coach operators would get 
paid fairly for the work they put in above 40 hours per week, making 
them less inclined to work other jobs while pushing their bodies to the 
limit.
    While FLSA's overtime provisions cover 85 percent of the U.S. 
workforce, intercity bus drivers are exempt.
Hours of Service and Enforcement Ineffective
    Federal Motor Carrier Safety Administration (FMCSA) hours of 
service regulations that have been in existence for decades are 
routinely ignored, especially by fly-by-night, nonunion bus companies. 
The State police in general do not perform random checks of passenger 
buses the way they do on cargo-hauling trucks because of the 
dissatisfaction expressed by passengers when their bus gets pulled out 
of commission and no replacement vehicle arrives for hours. Moreover, 
even if police actively seek out so-called discount bus carriers, there 
are not nearly enough law enforcement officers to even begin the 
process of ridding the highways of unsafe buses. While periodic stings 
pull large numbers of vehicles off the road and generate significant 
press coverage, it is back to business as usual once the headlines die 
down. Far too often, the families of innocent people find out that 
``business as usual'' in the intercity bus industry means that they 
will be attending a funeral instead of a family reunion.
Rest: A Commonsense Approach to Safety
    Doesn't it make sense to create economic conditions whereby drivers 
are fairly compensated for their work which exceeds 40 hours per week, 
making it less likely that they will have to resort to doctoring log 
books, working other jobs, and wearily reporting for duty with a giant 
cup of coffee? By doing so, fewer collisions will ultimately occur.
ATU Supports:
  <bullet>  S.487, The Driver Fatigue Prevention Act, which would apply 
        FLSA overtime provisions--which for decades have covered about 
        85 percent of American workers--to intercity bus drivers. Coach 
        operators would get paid fairly for the work they put in above 
        40 hours per week, making them less inclined to work other jobs 
        while pushing their bodies to the limit.

  <bullet>  Stronger enforcement of hours of service regulations.
Workforce Development
    The public transportation industry, like many service-based sectors 
in the United States, will be faced with major challenges in the near 
future. A large percentage of the transit workforce--both blue and 
white collar--will be retiring within the next few years. There is no 
pipeline of replacements on the horizon because the industry has a 
negative public image that hampers its ability to attract, recruit, and 
retain quality employees. And, for the existing workforce, new 
technology is rapidly changing the way transit agencies function, 
affecting every executive director, midlevel manager, bus driver and 
mechanic alike. Yet, relatively few programs exist to provide training 
to workers so that they can perform their jobs adequately, move up the 
career ladder, and help the Nation's transit agencies operate at 
maximum efficiency.
    Approximately 80 percent of transit employees are:

  <bullet>  Bus and train operators

  <bullet>  Bus mechanics

  <bullet>  Rail car technicians

  <bullet>  Signals technicians and traction power electricians

  <bullet>  Facilities maintainers

    Yet, the industry focus is heavily skewed to white collar needs. 
The U.S. Department of Transportation workforce funding is focused on 
university programs and university transportation centers, but many 
agencies find their biggest need is skilled blue collar technicians, 
electricians, and in signals.
    Until 2012, 80 percent of FTA's limited workforce funds went to 
white collar--16 times more per employee than blue collar. The National 
Transit Institute (NTI) is funded at $5 million per year, almost 
exclusively for white collar transit workforce training. At the same 
time, there is $0 for ongoing support for the frontline workforce. The 
equivalent of 88 percent of today's transit workforce will have to be 
hired and trained in the next 10 years, but the transit industry and 
agencies lack the capacity to train the next generation of blue collar 
technicians.
ATU Supports:
  <bullet>  Providing support for a national frontline workforce 
        training center, on an equal footing with NTI. We need to 
        support effective standards-based training for the blue collar 
        80 percent of transit's workforce.

  <bullet>  Ending the human capital investment inequality at FTA. 
        Include human capital as an ordinary part of capital grants.
Conclusion
    ATU is now engaged in an unprecedented effort to build coalitions 
with the millions of people who rely on fixed route and ADA paratransit 
service each day to commute to work, buy groceries, get to school, 
visit the doctor, and attend to life's other necessities. Two years 
ago, ATU created a 501(c)(3) organization known as American's for 
Transit (A4T) to strengthen, create, and unite grassroots transit rider 
organizations across the United States. We aim to create a big-tent 
coalition of transit riders and supporters to address the pressing 
transit funding crisis in America. Through A4T's efforts, there are now 
more than 90 transit rider groups all across the U.S., partnering with 
labor, chambers of commerce, faith-based groups, environmentalists, and 
others in an effort to expand and improve transit options for 
Americans.
    Transit riders and other stakeholders across the United States, who 
have already made themselves heard at the ballot box, raising their own 
taxes in support of transit measures that have poured millions of 
dollars into their communities, are now developing their voices just in 
time for the reauthorization debate in Washington, and within the next 
year, Members of Congress will be hearing from our partners outside the 
Beltway with a message that is plain and clear: the American people 
want expanded, high quality, and safe public transportation.
    Congress now has the opportunity to put partisan issues aside and 
provide America with an economic boost through a strong, well-planned 
Federal transit program that puts the interests of riders above those 
of private, foreign corporations. If policy makers do not approve a 
massive increase in transit funding and adopt policies that allow 
transit systems to use their funds more wisely, we will continue to 
stand in place and our urban centers will be paralyzed within decades.
    Above all else, Congress has an obligation to ensure that passenger 
safety is paramount in both intracity as well as intercity bus 
transportation, and ensuring the well-being of the operator is key to 
that objective. Unfortunately, current policies are not achieving that 
goal, and immediate change is necessary to protect the riding public.
    ATU looks forward to working with Congress, as we have since 1964, 
in support of a new bill that will address our Nation's mobility needs 
for another 50 years, and beyond.
                   APPENDIX: SUMMARY OF ATU POSITIONS
Increased Funding
ATU Supports:
  <bullet>  Funding public transportation at $119 billion over the next 
        6 years, more than doubling the commitment to transit in 
        SAFETEA-LU, as called for in President Obama's surface 
        transportation reauthorization proposal released prior to MAP-
        21 (FY2012 Budget).
Funding Sources:
            Gas Tax
  <bullet>  H.R. 3636, the Update, Promote, and Develop America's 
        Transportation Essentials Act of 2013, which would phase in a 
        15 cent/gallon tax increase over the next 3 years on gasoline 
        and diesel.
            Robin Hood Tax
  <bullet>  H.R. 1579, the Inclusive Prosperity Act to impose a tax on 
        certain financial transactions to strengthen our financial 
        security, reduce market volatility, expand opportunity, and 
        stop shrinking the middle class. This proposal, also known as 
        the ``Robin Hood Tax,'' could generate billions of dollars for 
        transportation infrastructure.
            National Infrastructure Bank
  <bullet>  H.R. 2553, the National Infrastructure Development Bank 
        Act, to responsibly create and fund a public bank to leverage 
        public and private dollars for meritorious infrastructure 
        projects of national or regional significance.
No More Cuts
ATU Supports:
  <bullet>  Authorizing transit systems to use their Federal funding 
        for operating assistance when needed to avoid service cuts, 
        route eliminations, or fare increases.

  <bullet>  Allowing fuel to be classified as a capital expense.

  <bullet>  Eliminating the Federal tax code's bias against people 
        taking public transportation through inclusion of H.R. 2288, 
        the Commuter Parity Act of 2013, to establish permanent tax 
        credit parity between the parking and transit portions of the 
        transportation fringe benefit.
Fulfill the Promise of the ADA
ATU Supports:
  <bullet>  Creation of the TREAD Program to finally provide people 
        with special needs riding paratransit the same mobility options 
        as people who rely on fixed route public transportation 
        services.

  <bullet>  Meeting our commitments to veterans and military families 
        by providing access to transportation options that facilitate 
        community integration and participation.
Enhance Transit Health and Safety
ATU Supports:
  <bullet>  Requiring newly manufactured vehicles to include 
        workstation changes to protect operators. While airplane 
        cockpits and train locomotives are completely off limits to 
        passengers, transit buses are wide open. Driver shields, 
        drivers' side doors, and other ideas must be on the table, as 
        should retrofitting of existing vehicles. Research is now 
        ongoing to determine the best options.

  <bullet>  Mandating that transit agency (bus and rail) comprehensive 
        safety plans address assault and restroom break matters. No 
        safety plan should be eligible for FTA certification unless it 
        receives the official approval of represented employees of the 
        grantee. Such a process will ensure a credible and enforceable 
        plan that addresses the real safety concerns of all involved.
Reject Privatization
ATU Supports:
  <bullet>  Repealing provisions of current law that provide an unfair 
        advantage to private contractors, including those that 
        basically require FTA to become a marketing arm of the private 
        sector.

  <bullet>  Requiring use of the Avoidable Cost Model in determining 
        whether to outsource public transit services.

  <bullet>  Ensuring that the methodology and criteria for service 
        selection and final decisions must continue to be left to local 
        decision makers, consistent with applicable laws, collective 
        bargaining agreements, and other pertinent agreements.
Preserve Transit Labor Protections
ATU Supports:
  <bullet>  Continuation of the critical transit employee labor 
        protections provided by Section 13(c) of the Federal Transit 
        Act.

  <bullet>  Application of Section 13(c) protections to any new Federal 
        transit programs or innovative financing mechanisms created 
        through MAP-21's reauthorization.
Address Intercity Bus Driver Fatigue
ATU Supports:
  <bullet>  S.487, The Driver Fatigue Prevention Act, which would apply 
        FLSA overtime provisions--which for decades have covered about 
        85 percent of American workers--to intercity bus drivers. Coach 
        operators would get paid fairly for the work they put in above 
        40 hours per week, making them less inclined to work other jobs 
        while pushing their bodies to the limit.

  <bullet>  Stronger enforcement of hours of service regulations.
Support Workforce Development
ATU Supports:
  <bullet>  Providing support for a national frontline workforce 
        training center, on an equal footing with NTI. We need to 
        support effective standards-based training for the blue collar 
        80 percent of transit's workforce.

  <bullet>  Ending the human capital investment inequality at FTA. 
        Include human capital as an ordinary part of capital grants.
              Additional Material Supplied for the Record
              
              
  STATEMENT SUBMITTED BY THE CONSORTIUM FOR CITIZENS WITH DISABILITIES

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
